<html>
<title> - CHINA IN 1989 AND 2015: TIANANMEN, HUMAN RIGHTS, AND DEMOCRACY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








     CHINA IN 1989 AND 2015: TIANANMEN, HUMAN RIGHTS, AND DEMOCRACY

=======================================================================

                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 3, 2015

                               __________

 Printed for the use of the Congressional-Executive Commission on China


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.cecc.gov
         
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-041 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         


              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRIS SMITH, New Jersey, Chairman    MARCO RUBIO, Florida, Cochairman
ROBERT PITTENGER, North Carolina     SHERROD BROWN, Ohio
TRENT FRANKS, Arizona                DIANNE FEINSTEIN, California
RANDY HULTGREN, Illinois             JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  GARY PETERS, Michigan
MARCY KAPTUR, Ohio
MICHAEL HONDA, California
TED LIEU, California

                     EXECUTIVE BRANCH COMMISSIONERS

                 CHRISTOPHER P. LU, Department of Labor
                   SARAH SEWALL, Department of State
                STEFAN M. SELIG, Department of Commerce
                 DANIEL R. RUSSEL, Department of State
                  TOM MALINOWSKI, Department of State

                     Paul B. Protic, Staff Director

                Elyse B. Anderson, Deputy Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             CO N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. Christopher Smith, a U.S. 
  Representative from New Jersey; Chairman, Congressional-
  Executive Commission on China..................................     1
Teng, Biao, a Well-known Chinese Human Rights Lawyer; a Harvard 
  University Law School Visiting Scholar; and Co-founder, the 
  Open Constitution Initiative...................................     5
Peng, Lisa, Daughter of Chinese Democracy Activist Peng Ming; 
  Freshman, Harvard University; and TEDx Speaker.................     7
Ho, Pin, President and CEO, Mirror Media Group...................     9
Horowitz, Michael, CEO, 21st Century Initiative, a Washington, DC 
  Think Tank.....................................................    14
Yang, Jianli, President, Initiatives for China/Citizen Power for 
  China..........................................................    18

                                APPENDIX
                          Prepared Statements

Teng, Biao.......................................................    38
Peng, Lisa.......................................................    40
Ho, Pin..........................................................    41
Yang, Jianli.....................................................    46

Smith, Hon. Christopher, a U.S. Representative From New Jersey; 
  Chairman, Congressional-Executive Commission on China..........    56
Rubio, Hon. Marco, a U.S. Senator From Florida; Cochairman, 
  Congressional-Executive Commission on China....................    57

                       Submission for the Record

Witness Biographies..............................................    59

 
     CHINA IN 1989 AND 2015: TIANANMEN, HUMAN RIGHTS, AND DEMOCRACY

                              ----------                              


                        WEDNESDAY, JUNE 3, 2015

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:02 
a.m., in room HVC-210, Capitol Visitor Center, Representative 
Christopher Smith, Chairman, presiding.
    Also present: Representatives Randy Hultgren and Trent 
Franks.

      OPENING STATEMENT OF HON. CHRISTOPHER SMITH, A U.S. 
    REPRESENTATIVE FROM NEW JERSEY, CHAIRMAN, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Chairman Smith. The meeting of the Commission will come to 
order, and good morning to everybody. Thank you for being here.
    Twenty-six years ago, the world watched as millions of 
Chinese gathered to peacefully demand political reform and 
democratic openness. The hopes and promises of those heady days 
ended with wanton violence, tears, bloodshed, arrests, and 
exile. Mothers lost sons, fathers lost daughters, and China 
lost an idealistic generation to the tanks that rolled down 
Tiananmen Square on June 4, 1989.
    Tiananmen Square has come to symbolize the persistent and 
brutal lengths the Chinese Communist Party will go to remain in 
power. This event has done more to negatively shape global 
perceptions of China than any other in recent history.
    We remember the Tiananmen Square massacre here in Congress 
because of its enduring impact on U.S.-China relations. We 
remember it also because an unknown number of people died, were 
arrested, and exiled simply for seeking universally recognized 
human rights and freedoms.
    We also remember Tiananmen Square because so many people 
were arrested last year for trying to commemorate the 
anniversary in China. We remember this date each year because 
it is too important to forget and because it is too dangerous 
to commemorate in the People's Republic of China.
    The Chinese Government should allow open discussion on the 
Tiananmen protests and end the enforced amnesia surrounding the 
events of 1989, and more importantly, the Chinese Government 
should take responsibility for this needless national tragedy 
that occurred on June 3 and 4, and continued as people were 
hunted down. Those who had fax machines were followed, 
arrested, and incarcerated.
    Sadly, it seems that a China led by President Xi Jinping 
will not take such responsibility. President Xi and top 
Communist Party leaders regularly unleash bellicose attacks on 
universal values, Western ideals, and revisionism of the 
Party's history.
    The domestic screws on dissent have tightened considerably 
since Xi Jinping assumed the presidency. Over 230 people have 
been detained for their human rights advocacy and peaceful 
efforts at political reform. A number of rights groups are 
calling this the largest crackdown in two decades.
    The Chinese Government rounds up not only reformers, but 
those who defend them. It views most Uyghurs as security 
threats and then jails Uyghur intellectuals peacefully seeking 
ethnic reconciliation. It not only smothers Internet freedom 
and its domestic media, but threatens foreign journalists and 
spurs self-censorship from Harvard Square to Hollywood.
    The Chinese Government also threatens foreign citizens or 
foreign institutions who speak out for greater human rights. 
The family members of Canada's Miss Universe, for example, were 
threatened for her outspokenness about human rights.
    Also, China's new and troubling NGO [non-governmental 
organization] law could bar an American university from China, 
or even detain its representatives in China, if a campus 
student group stages a protest in the United States against the 
Chinese Government's treatment of Tibetans, Christians, or 
Falun Gong, the detention of Liu Xiaobo, or the criminal 
tragedy of China's 35-year one-child-per-couple policy, with 
its reliance on forced sterilization and forced abortion.
    U.S. policy must support Chinese advocates who promote 
human rights and political reform and stand firm for U.S. 
interests and greater freedom and democracy in China. Our 
strategic and moral interests coincide when we support human 
rights and democracy in China. A more democratic China, one 
that respects human rights and is governed by the rule of law, 
is more likely to be a productive and peaceful partner rather 
than a strategic and hostile competitor.
    We should remember this fact as we watch China building 
bases and threatening free and open sea lanes in the East and 
South China Seas. The United States must also make strong 
appeals to China's self-interest; the rule of law, freedom of 
the press, and independent judiciary; a flourishing civil 
society; and accountable officials who would promote all of 
China's primary goals: economic progress, political stability, 
reconciliation with Taiwan, good relations with America and the 
rest of the world, and international stature and influence.
    At the same time, the United States must also be willing to 
use political and economic sanctions to respond to gross 
violations of human rights in China, torture, prolonged and 
arbitrary detention, forced abortions, psychiatric 
experimentation or organ harvesting from prisoners.
    That is why I introduced yesterday the China Human Rights 
Protection Act of 2015, H.R. 2621. This bill will deny U.S. 
entry visas and issue financial penalties to any Chinese 
official who engages in gross violations of human rights.
    I would note parenthetically that in 2000 I authored a 
Foreign Relations Act and it contained a provision that we put 
in that said that anyone who is complicit in forced abortion 
and forced sterilization can be denied, and must be denied, 
entry into the United States.
    Sadly, the administration has not--and I repeat, not--
enforced that law. We will continue to ask them to simply 
follow the rule of law here and preclude access to the United 
States by those who abuse women in such a horrific way.
    The United States must show leadership in this regard and 
it must send a very strong message. The worst violators of the 
rights of the Chinese people, those who abuse universal freedom 
with impunity, should not prosper from access to the United 
States and our economic or political freedoms. Again, this new 
bill would cover all the gross human rights violators and, 
again, preclude their entry to the United States.
    It is tempting to be pessimistic about China's future and 
the future of U.S.-China relations. I am not a pessimistic 
person, but I am hopeful. Constant repression has not dimmed 
the desires of the Chinese people for freedom and reform. While 
the hopes of the Tiananmen Square demonstrators have not yet 
been realized, their demands for universal freedoms continue to 
inspire Chinese people today and it has passed on to a new 
generation.
    We have with us today participants of the Tiananmen 
protests of 1989 and new generations of advocates for 
democratic openness and for human rights. They fight for 
universal freedoms. They fight for the release of their 
families, their fathers. And they fight for reform and a future 
China that protects human rights. It is the new generation that 
will inspire change in China.
    I believe that someday China will be free. Someday the 
people of China will be able to enjoy all of their God-given 
rights, and a nation of free Chinese men and women will honor, 
applaud, and celebrate the heroes of Tiananmen Square and all 
of those who sacrificed so much, for so long, for freedom.
    I would like to now introduce our very distinguished panel 
to this Commission hearing, beginning with, first, Dr. Teng 
Biao, who is a well-known Chinese human rights lawyer, a 
Harvard University Law School Visiting Scholar, and Co-founder 
of the Open Constitution Initiative.
    Dr. Teng holds a Ph.D. from Peking University Law School. 
As a human rights lawyer, he is a promoter of the Rights 
Defense Movement and a co-initiator of the New Citizens 
Movement. In 2003, he was one of the ``Three Doctors of Law'' 
who complained to the National People's Congress about 
unconstitutional detentions of internal migrants, and he has 
provided counsel in numerous other human rights cases.
    We will then hear from Lisa Peng, who is the daughter of 
Chinese human rights and pro-democracy activist Mr. Peng Ming, 
who was kidnapped in Burma by Chinese secret police and 
sentenced to life in prison in 2004. Lisa is currently a 
freshman at Harvard. She was born in Beijing and suffered 
doubly as a second child by being denied official legal 
recognition. As we all know, that is one of the ways that they 
impose sanctions on those who have a second-order birth, as 
they call it.
    In 2000, her family fled the government persecution and was 
accepted by the United States as UN refugees in 2001. Lisa 
continues to work with the ChinaAid Association, the State 
Department, and Members of Congress to advocate for the release 
of her father and other prisoners of conscience.
    We will then hear from Ho Pin, a journalist and director of 
the News Department at Shenzhen News, who is originally from 
Hunan and participated in the 1989 movement. Ho left China for 
Canada after Chinese authorities started investigating him 
because of his writings and analysis of political events in 
China.
    Ho Pin established the Mirror Media Group in Canada in 1991 
and the Chinese news website Duowei News in 1999. Mirror Media 
currently includes five independent publishing houses, five 
magazines, three websites, a bookstore, and an online 
bookstore. Ho Pin has worked in mainland China, Hong Kong, and 
Taiwan with news as a reporter, editor, and executive.
    We will then hear and welcome back for a return trip, a man 
who has been a great staunch defender of human rights and a 
great thinker, strategic thinker, Michael Horowitz, CEO of the 
21st Century Initiative, who has led a broad range of human 
rights coalitions and has played major roles in the passage of 
such human rights legislation as the International Religious 
Freedom Act, the North Korea Human Rights Act, the Trafficking 
Victims Protection Act, and the Sudan Peace Act, just to name a 
few.
    Mr. Horowitz has been especially active on behalf of 
Tibetan Buddhists, Christians, Falun Gong believers, and Uyghur 
Muslims. He has also provided vital assistance to the 
organizations dedicated to fighting Internet censorship and 
penetrating China's Great Firewall.
    He served as general counsel of the Office of Management 
and Budget during the Reagan administration and again has 
provided this Commission and the Human Rights subcommittees in 
both the House and the Senate with tremendous insight and 
counsel over the many years.
    We will then hear from Dr. Yang Jianli, who is a scholar 
and 
democracy activist internationally recognized for his efforts 
to promote democracy in China. He has been involved in the pro-
democracy movement in China since the 1980s and was forced to 
flee China in 1989 after the Tiananmen Square massacre. In 
2002, Dr. Yang returned to China to support the labor movement 
and was imprisoned by the Chinese authorities for alleged 
espionage and illegal entry.
    Following his release in 2007 and his subsequent return to 
the United States, Dr. Yang founded Initiatives for China, also 
known as Citizen Power for China, a non-governmental 
organization that promises China's peaceful transition to 
democracy. Again, he, too, has provided tremendous insights 
over the years to this Commission, as well as to the Human 
Rights committees in the House and the Senate.
    I would like to now ask Dr. Teng Biao if he would proceed.

   STATEMENT OF TENG BIAO, A WELL-KNOWN CHINESE HUMAN RIGHTS 
LAWYER; HARVARD UNIVERSITY LAW SCHOOL VISITING SCHOLAR; AND CO-
           FOUNDER, THE OPEN CONSTITUTION INITIATIVE

    Mr. Teng. Thank you very much. Twenty-six years have 
passed, but the killing did not end in 1989. Many interested 
citizens labeled ``Tiananmen thugs'' have been executed in 
custody and repatriation centers, detention centers, prisons, 
reeducation through labor camps, and various black jails; 
countless deaths have been due to state violence.
    Citizens die at the scenes of forced demolitions or enter 
the iron face of civil city management. Since 1999, at least 
3,860 Falun Gong practitioners have been clearly tortured to 
death. Since 2009, at least 140 Tibetans have self-immolated in 
protest of the authorities' brutal domination.
    As the activists are captured and tortured, the gunfire of 
Tiananmen is echoing in the background. The Tiananmen massacre 
sustained the Party system, since the Party showed its two 
faces in 1989, and its rough treatment of the Chinese people 
has become even more brazen.
    Partly because of not having unions and not having the 
freedom to assemble and go on strike, there is the advantage of 
the lack of human rights through government collusion and 
extreme eco-redistribution, China has achieved rapid economic 
rise. But many social and political problems are behind this 
economic growth: pollution, ecological crises, and widespread 
unsafe food products, corruption, and clashes between citizens 
and authorities.
    The Chinese Government has never stopped its crackdown on 
people's resistance. Since Xi Jinping came to power, he has 
issued a harsh, comprehensive crackdown. More than 1,500 human 
rights defenders have been arrested and detained. Some of them 
were brave enough to promote political activities, but many 
focus only on rural libraries, LGBT rights, and so on.
    Internet censorship is increasingly strict. Document No. 9 
reflects the severe control over ideology in universities, the 
Internet, and the media. Gao Yu, a 70-year-old renowned 
journalist, was sentenced to seven years, accused of leaking 
state secrets.
    Three important laws have been drafted and will pass soon. 
The State Security Law, Ccounterterrorism Law, and Foreign NGO 
Management Law. This law legitimizes human rights violations. 
Foreign NGOs will be seriously affected and many will have to 
leave China.
    Public security bureaus inside of the civil affairs bureaus 
will be given the power to ratify and supervise foreign NGOs. 
The counter-terrorism law requires Western IT companies to 
provide encryption keys and source codes.
    More recently, a Uyghur Muslim was sentenced to six years 
in Kashgar for refusing to shave off his beard and his wife was 
imprisoned for two years for wearing a burqa.
    The Panchen Lama has been disappeared for 20 years. Some 
relatives and friends of Tibetan self-immolators were detained 
and sentenced for assisting in the self-immolation.
    Christian churches were destroyed and some pastors were 
jailed. Falun Gong and other religious group members were 
detained and tortured, imprisoned in legal education centers 
and other black jails. Many lawyers were harassed when 
challenging the legal education centers, with at least four of 
them suffering broken ribs from beatings. More forced 
demolitions have happened and petitioners are facing harsher 
punishments than before.
    In general, the current comprehensive crackdown is seen as 
the worst since the 1989 Tiananmen Square massacre. I do not 
deny that there are some improvements and reforms, but the 
major driving force for these changes and reforms has been the 
people, as a result of probing, pressure, and prices paid by 
the rights lawyers, democracy activists, and other human rights 
defenders.
    There must be something wrong with the petitioners and 
business people. So as to not inflame the Chinese Communist 
Party, they do not dare to meet with the Dalai Lama. To gain 
Chinese markets, they disregard violations of human rights. To 
receive large orders for goods, they, one after another, adopt 
appeasement policies toward the Communist autocratic regime. 
Democratic countries join in the AIIB [Asian Infrastructure 
Investment Bank].
    Beijing watchers and the researchers self-censor, even to 
the point that they defend despotism. But now is the time for 
the West to re-think and adjust its policies toward China. A 
strong, repressive political power is threatening not just the 
Chinese people, but the entire world. Only promoting a truly 
free China comports with the long-term interests of humanity.
    The Chinese Communist Party [CCP] will not last forever, 
but the Chinese people will continue to live on that soil. The 
day will come when the United States must deal with today's 
Chinese prisoners of conscience locked away and filled with 
suffering, Liu Xiaobo, Xu Zhiyong, Ilham Tohti, Pu Zhiqiang, 
and others.
    Last, some recommendations. First, pass an act to prohibit 
Chinese perpetrators who are responsible for human rights 
violations from entering the United States and other democratic 
countries. Support Chinese human rights defenders, political 
prisoners, and real NGOs. Give a voice to permanent activists, 
just as the West has done with the Dalai Lama, Liu Xiaobo, and 
Hu Jia.
    Stop the cooperation with the Chinese Government's 
organized NGOs, or GONGOs, which are helping the Chinese 
Government to suppress human rights and freedom, for example, 
the All China Lawyers Association and the Chinese Human Rights 
Association.
    Make sure that the Confucius Institute, scholars and 
students, federations and other government-sponsored programs 
do not violate academic freedom and human rights. Punish the 
American companies and individuals who have cooperated with the 
CCP to suppress freedom and human rights. Help to develop 
technology to circumvent Internet censorship.
    After 26 years, the symbolism and meaning inherent in that 
world-famous picture still needs understanding. A young person, 
solitary, standing in front of a tank has communicated the 
terror and blackness of tyranny and communicated the Chinese 
people's brave resistance to tyranny. History will require us 
to answer one question: Do we stand on the side of the tank man 
or on the side of the tank? Thank you very much for hearing me. 
Your ideas, your voices, and your votes will influence China 
and bring more freedom and human rights to this planet.
    Chairman Smith. Dr. Teng, thank you very much for your 
testimony, for your very specific recommendations, and again, 
we deeply appreciate, on the Commission, your input, especially 
as we prepare the next iteration of our report, which hopefully 
will bear truth to power and speak truth to power in Beijing 
and anywhere else where there is a willing listener. So, thank 
you so very much.
    I would like to now ask Lisa Peng if she would provide her 
testimony.
    [The prepared statement of Mr. Teng appears in the 
appendix.]

STATEMENT OF LISA PENG, DAUGHTER OF CHINESE DEMOCRACY ACTIVIST 
        PENG MING, FRESHMAN AT HARVARD, AND TEDx SPEAKER

    Ms. Peng. Honorable Chairman and members of the Commission, 
thank you for inviting me to testify at today's hearing on 
Chinese authorities' treatment of democracy and human rights. 
These are the values all of us here have the freedom to discuss 
today, but the same values for which my father, Peng Ming, is 
serving a life sentence in China.
    Two years ago, I debated at the City Club of Cleveland's 
High School Debate Championship on the topic of whether the 
United States is justified in intervening in the internal 
political processes of other countries to stop human rights 
abuses.
    Each year, the City Club of Cleveland provides two high 
school debaters the opportunity to debate in a room 
historically renowned for celebrating the freedom of speech. As 
I researched the topic of human rights abuses in preparation 
for the debate, I learned about the moral obligation of 
countries to protect human rights and the fundamental role 
human rights ought to play in foreign relations.
    I realized that despite such a moral obligation, it is easy 
to stand by as human rights are abused; it is easy to passively 
accept human suffering. This topic was personal for me because 
my father is serving a life sentence in a Chinese prison, 
branded a criminal by the Chinese Government because of his 
work advocating for human rights.
    My journey to advocate for the release of my father and for 
human rights in China began two years ago with a debate topic 
that piqued my interest in learning about those rights and 
about my own father. I had always known that I am his mirror 
image and that we both share a love for the art of debate, but 
beyond that I did not know much else; after all, my last memory 
of him is from 11 years ago. Thus, I began to piece together a 
timeline of my father's life and my family's journey of escape 
to America.
    My father is an environmentalist, an economist, and a human 
rights activist. He is the author of ``The Fourth Landmark,'' a 
book on China's economic and political growth that was 
sponsored by the Ford Foundation. He was also the founder of 
China Development Union, a think tank established to address 
the censored topics of rule of law and human rights.
    However, in 1999, the Chinese Government shut down his 
think tank and sentenced him to 18 months of labor camp. His 
crime? Passionately advocating for human rights and freedom in 
China.
    Upon his release, the government wire tapped our house, 
began following our car, and even threatened my father with a 
second arrest. It became too dangerous to continue living in 
China and so my family decided to flee political persecution.
    We eventually made it to Thailand, where we were granted UN 
refugee status. On August 29, 2001, we landed in the United 
States, the land that stood for us as a beacon of freedom, 
human rights, and rule of law. For the first time, we 
experienced freedom of expression and justice, not as values 
confined to an underground think tank, but rather as values 
championed by a nation.
    In the United States, my father continued his human rights 
work. In 2004, he went to Thailand to establish a safe haven 
for political refugees. However, he was lured to Myanmar, 
kidnapped by Chinese secret police, and quickly sentenced to 
life in prison.
    The UN Working Group for Arbitrary Detention has determined 
that the deprivation of my father's liberty is in contravention 
to the Universal Declaration of Human Rights. Furthermore, my 
father is a U.S.-based dissident with UN refugee status who 
escaped political persecution in China, therefore, his 
kidnapping is in violation of non-refoulement which forbids the 
return of a victim of persecution to his persecutor.
    My father has also been deprived of his right to due 
process, as he was denied access to a lawyer and a jury of his 
peers, rights we take for granted here in the United States.
    That debate resolution two years ago prompted my journey to 
discover who my father is and the values for which he stands. 
While I had the privilege to debate in a room that celebrates 
the freedom of speech, my father remains locked in a room built 
to silence and punish prisoners of conscience.
    It has been a decade during which I have been privileged to 
receive an American education and learn about freedom, 
democracy, and justice, but a decade during which my father has 
remained in prison with no medical care for fighting to secure 
those very same values.
    As an American citizen, I cannot merely stand by and 
passively accept the denial of these fundamental freedoms. In 
the past two years, I have worked with Members of Congress to 
advocate for my father's freedom and for the freedom of 
thousands of other political prisoners in China.
    Although the support from U.S. Congressmen has given me 
great hope for my father's release, I know that his case is 
only the tip of the iceberg. There remain thousands of 
prisoners of conscience and innocent Chinese civilians who 
suffer the same denial of basic freedoms. If we do not speak 
up, there will remain no hope for human rights in China and 
activists like my father will continue to suffer.
    Sadly, the human rights issue is one that is easily ignored 
in light of pressing economic and political concerns. China has 
become the world's second-largest economy and a major trading 
partner of the United States. Powerful economic interests want 
us to turn a blind eye to China's human rights record.
    Respecting America's values and standing up for human 
rights has never been easy and it is not easy now, but is that 
not what the promise of America is really about? Though I am no 
politician or expert in this field, I have learned through 
debate that human rights are the foundation from which 
meaningful and effective discussions of economics and politics 
must proceed. The values and interests are so often not just 
parallel, but the same.
    In fact, these are the same values and fundamental freedoms 
on which our great nation was founded. As someone who was 
rescued, raised, and educated by this country, I feel that I 
owe the United States my utmost gratitude.
    However, gratitude for one's country is not demonstrated by 
passive acceptance of our country's actions, but in active 
scrutiny. We show our love and gratitude for our nation by 
holding it to the highest of standards, the standards on which 
it was founded.
    In doing so, I have realized that the issue of human rights 
is not only political, it is personal. It is a personal 
commitment to speak up, it is a refusal to remain silent, it is 
acting on the principles that we read about, write about, and 
talk about at hearings like these.
    It is the efforts of the Congressional-Executive Commission 
on China, Congressman Smith and Senator Rubio, who speak up and 
take a stand on human rights that give me hope for the future. 
They give me hope for the possibility of telling my father in 
person how much we have all cared about him and his dream for 
China's future. They give me hope for the possibility of 
securing human rights in China and for paying the utmost 
respect to the values on which our own great country was 
founded, the values for which I hope it will always stand.
    Thank you.
    Chairman Smith. Ms. Peng, thank you so very much. I can 
only say, as a father of two daughters just a little bit older 
than you, your father has to be so very proud of you. Thank you 
for, as you said, your refusal to remain silent. You have not 
remained silent. Frankly, I would never want to debate you. You 
really are very articulate and very persuasive. Thank you so 
much.
    We now will turn to Mr. Ho Pin for his testimony.
    [The prepared statement of Ms. Peng appears in the 
appendix.]

   STATEMENT OF HO PIN, PRESIDENT AND CEO, MIRROR MEDIA GROUP

    Mr. Ho. Representative Smith and Senator Rubio, thank you 
for giving me the opportunity to stand here today and to give 
voice to a brave Chinese journalist, Ms. Gao Yu, who has 
recently been imprisoned on fictitious charges for the third 
time. The 71-year-old Gao Yu merely fulfilled her duty as a 
journalist and shared the truth that she knew with the public. 
Gao Yu's case is not isolated. More and more writers, thinkers, 
and human rights lawyers are being illegally detained or 
imprisoned. This includes the Nobel Peace Prize winner Liu 
Xiaobo, economist Ilham Tohti, writer Xu Zhiyong, lawyer Pu 
Zhiqiang. The list goes on.
    Over the years, many people have stood in this very spot, 
urging the world to pay attention to China's human rights 
abuses. But, this solitary light in the darkness has not been 
able to illuminate China's blatant violations or pierce through 
the smog shrouding all the injustices. Therefore, I do not want 
to take that route again and focus solely on China's human 
rights issues or to condemn the Chinese Government like others 
have done before. I want to raise some questions instead.
    With its deteriorating human rights records, why is China 
getting stronger by the day? Why are Chinese leaders getting 
more popular in the international community? Is China building 
its national strength for the sole purpose of jockeying for the 
number one position with the United States? Will China engage 
in a war with the United States and its Asian neighbors such as 
Japan and the Philippines? Will the world return to a cold war?
    These are not new questions. American experts have already 
provided some answers. Some scholars believe that there is a 
secret ``bamboozling'' department within the Communist Party. 
It has designed strategies that have successfully deceived the 
world and gained China several decades of time to develop.
    Some say the rule of the Chinese Communist Party is already 
approaching its end and the regime is on the verge of 
collapsing. Others claim that U.S.-China relations have 
deteriorated to a critical point and that the United States 
should throw China some candies to lure it back to the right 
track.
    So what are my views?
    First, I believe that China has risen, and it has, as 
advertised, risen peacefully. China is the world's No. 2 
economy and has splashed huge amounts of investment across the 
globe. Millions of wealthy Chinese travelers flock to every 
famous tourist site and the most expensive department stores. 
It would be impossible to close your eyes and ignore China's 
rise. The only thing China has yet to achieve is the No. 1 
position in the world.
    At the same time, China's rise has not led to any wars. 
Even though the Chinese Army has been acting like a belligerent 
hormone-raging teenager in the South and East China Seas over 
the last few years, I don't think the Chinese leadership has 
plans or the desire to start a war in Asia. Especially when 
they are not psychologically prepared to lose a war. The most 
arrogant and bold military commanders can merely strike a pose 
through minor incursions or the intimidation of the militarily 
weak Philippines. With the exception of its strategic missile 
defense systems, which aim to deter, rather than invade, the 
Chinese army does not yet have the ability to project its power 
around the globe. Even in the Pacific region, Chinese Navy and 
Air Forces are not capable of a sustaining war against Japan 
and the United States.
    In other words, China lacks the ability to launch a large-
scale war in the Pacific theater in the foreseeable future, not 
to mention launching a world war like Nazi Germany did. China 
does not have the capability, nor the guts. It is not their 
intention. There is no Adolf Hitler in China. More importantly, 
the Chinese leadership does not see the necessity.
    In addition, China has no plans to engage in a cold war 
with the West, the United States included. The current 
political system in China cannot be defined in conventional 
terms. It is neither socialism, nor capitalism. It is not an 
empire in the traditional sense. It is a mongrel. One of the 
most famous maxims of Deng Xiaoping states that ``It doesn't 
matter whether a cat is white or black, as long as it catches 
mice.'' Therefore, the end justifies the means. While this 
pragmatic philosophy has contributed to China's rapid economic 
growth, it also turned the Chinese political system into a two-
faced monster the likes of which one normally sees only in 
computer games. Like the legendary cat that has nine lives, it 
is adaptable and resilient.
    As a consequence, many incomprehensible things have 
happened--the ruling Communist Party has defied expectation and 
lived on. The government can blatantly repeat something that is 
universally acknowledged as lies. For example, the Communist 
Party is promoting an anti-West agenda in its internal 
documents. The Communist Party's propaganda machine distorts 
truths about Western democracies to prevent the pursuit of 
democratic values by its citizens and to threaten its citizens 
who are trying to demand the rights to select their own 
leaders, criticize their governments, and use the law to 
protect themselves. On the other hand, the Communist Party has 
long abandoned socialist theories. Many leaders are big fans of 
Western democratic societies. They send their children to study 
in the West or secretly help their relatives who intend to 
emigrate. Some view the fact that they can visit the West as a 
badge of honor. I have met and talked with many Chinese 
officials when they traveled in the United States, and hardly 
anyone was a true opponent of Western values. On the contrary, 
they all agree that a democratic system can guarantee fairness 
and bring stability to the country.
    In other words, the Chinese leaders have no intention of 
building another Berlin Wall. Neither do they plan to start a 
cold war with the West. They have no desire to impose their 
systems on the West because they cannot even define the kind of 
political system China has. There is no Stalin in China and 
nobody wishes to be his disciple. President Xi Jinping has 
heaped praise on Putin, but his praise has its own purpose. 
President Xi admires Putin's personal power. It is true that 
the Chinese president stood side-by-side with Putin to inspect 
the troops in the Red Square a few days ago, but that doesn't 
mean that China and Russia can establish an alliance against 
the United States. Mistrust of Russia by the Chinese Government 
and people is deep-seated and hard to dispel.
    Third, the conflicts between China and the West are not 
about ideology or cultures. The mainstream religion, in China 
has long served as a tool to unite all factions of society. 
Religion, a tamed pussycat, is becoming an integral part of the 
Communist Party. The Chinese are not capable of starting a holy 
war against the West. They would not even dare. Nationalism is 
nothing more than lip service. The Chinese leaders use this 
type of neurotic nationalism to cover up their empty and phony 
ideology. No leaders would want nationalism to become fanatical 
and get out of control. Overheated nationalism could set the 
house of the Party on fire.
    If the above are true, why are we worried? We should not 
only be concerned but also alarmed. It's not a matter of which 
country will be the world's number one. The changes in China 
will impact the world. If China can integrate itself into the 
civilized world, in which people's rights and self-
determination are respected, the world will enter a new era. 
Mankind can truly base their thinking and policies on a common 
destiny. If the Chinese Communist Party, with its terrible 
records on human rights and stellar results in economic 
development, is allowed to continue, it will not only bring 
disaster to the Chinese people, but also destruction to the 
whole world. It is neither an actual war with weapons, nor is 
it a cold war between two ideological camps. It is not a 
conflict of cultures and value systems. China's mongrel and 
pragmatic nature has made its system more adaptable and more 
powerful. Its ability to destroy the world's political and 
biological environments and to spread such destructive power is 
beyond even its own expectation. A virus starts with just a few 
patients. Soon, it spreads to every corner, causing a worldwide 
outbreak. This is what China will do to the world--destroy the 
very foundation of human freedom.
    What I want to emphasize is that this is not what the 
Chinese leadership envisioned 30 years ago. Neither is it the 
political ambition of the current leadership. The current 
situation is the consequence of human weakness, the short-
sightedness of politicians of the West, the insatiable greed of 
unscrupulous capitalists, and the distorted social and 
political structure in China. Together, they have created such 
a virus, or at the very least, they have provided opportunity 
for it to mutate and spread.
    Two months after the Chinese Government brutally cracked 
down on the student movement in China on June 4, 1989, 
President George Bush provided prompt support for Deng Xiaoping 
through his secret envoy. The collapse of the former Soviet 
Union and East European Communism made many politicians in the 
West complacent. They forgave and accepted the paranoid and 
humble Chinese leaders. In return, Deng Xiaoping and his 
successors initiated open door and economic reform policies. 
These reforms did not bring any political progress. Instead, 
China took advantage of the technology from Hong Kong, Taiwan, 
and the West and the benefits of the WTO to boost its economy 
at the cost of social equality and its environment. Once the 
Communist Party strengthened its power through its strong 
economy, it went on to undermine Western opposition to China's 
human rights practices.
    Now, the Chinese leadership practically does not care at 
all about the pressure from Western public opinion because 
politicians and businessmen from around the world are 
salivating at China's immense purchasing power, investment, and 
markets. It is no exaggeration to say that today, Chinese 
leaders are the most well-received, honored guests in a 
majority of countries worldwide; China is the destination for 
many of the world's elite who thirst for gold.
    Beijing tightly controls the freedom of the press. They 
could cut off Google and Yahoo! anytime; they had refused visas 
for New York Times journalists, and blocked access to Twitter 
and Facebook. All without impunity. While at the same time, 
they can set up any media they would like in the United States. 
They provide free trips to Chinese language media chieftains in 
the West to receive training in China, and they even hire 
secret hackers to attack independent Chinese media outlets 
overseas. Ironically, China, which screens, censors, and bans 
any print and electronic publication, has been invited to serve 
as the country of honor at book fairs in Frankfurt, London, and 
New York.
    Hollywood is the epitome of free American culture; 
filmmakers are free to ridicule, mock, and criticize American 
politicians and government officials such as senators, judges, 
and the president, without fear of persecution. But in their 
pursuit of China's box office dollars, Hollywood executives 
have consciously decided to steer clear of any criticism of the 
Chinese Government. Despite this, American movies are still 
censored in China, and some are not allowed at all.
    Given these circumstances, does China's leadership have to 
risk it all and start a war? Does China have to close its doors 
once again and restart the cold war against the West? They can 
get everything they need and they can reject everything they do 
not want.
    The problem lies in the fact that the West pursues short-
term economic interests by ignoring the worsening of Chinese 
people's rights. Western corporations scrambled to do business 
with China regardless of the record of human rights violations. 
A desire for profit with no social conscience encourages the 
growth of this new style of politics in China. It is tantamount 
to striking the core of every lesson Chinese officials learned 
about conducting their political business worldwide. Meanwhile, 
the cash that the Communist Party waves in their hands has made 
it possible for the China virus to spread unencumbered in the 
world, causing the value of Western freedom to grow weaker, 
feebler, and more and more susceptible to illness.
    China was never a threat before. It was the Western world 
that has made the Chinese leadership think the West could 
easily be threatened.
    So what can we conclude? No one can figure it out, because 
no one is consciously aware; to a certain extent, we have all 
been infected by the virus. Otherwise, we would not feel so 
confused and lost, so powerless. And because of our inaction 
and complacency, Gao Yu, Liu Xiaobo, Ilham Tohti, Wang 
Bingzhang, Xu Zhiyong, and Pu Zhiqiang are languishing in 
prisons. Chinese citizens who died 26 years ago in Tiananmen 
Square and now lie in the ground have turned into lonely ghosts 
wandering in the wild. Dawn has yet to arrive in China. If we 
continue along this muddy, murky road, we will also be 
swallowed by the darkness.
    The reason that I'm standing here today is that the scene I 
saw 26 years ago in Tiananmen Square still has not faded from 
my memory. I share the pain of those who lost friends and 
relatives in Tiananmen Square. I firmly believe that things 
could change if America were to wake up from its vacant and 
passive view of China. America is not a narrow-minded 
nationalist empire. America represents the values established 
by people who pursue the dream of freedom. This means that 
America is destined to be responsible for people who are 
pursuing similar dreams in other countries. I am not advocating 
war between China and the United States. I absolutely do not 
want confrontation between China and the United States. I do 
not think it is necessary for another Pearl Harbor to wake up 
the American people. I hope that America will become the 
driving force for democracy and human rights in China. The very 
least we can do is to take actions that will not encourage the 
continued growth of a dangerous political virus in China that 
values cash more than freedom and human rights. We can, and 
should, work to assure the Chinese people their dignity, to 
assure a long-term friendship between the United States and 
China, and to assure the security of the cornerstone of freedom 
for the whole world.
    Chairman Smith. Thank you so very, very much.
    Without objection, I would like to put Mr. Ho Pin's April 
28 New York Times op-ed, just a few days ago, into the record, 
``Gao Yu's Real Crime.'' Without objection, so ordered.
    We are joined by Commissioner Randy Hultgren. Randy, thank 
you for being here.
    We will now go to Michael Horowitz.
    [The article appears in the appendix.]
    [The prepared statement of Mr. Ho appears in the appendix.]

STATEMENT OF MICHAEL HOROWITZ, CEO, 21ST CENTURY INITIATIVES, A 
                   WASHINGTON, DC THINK TANK

    Mr. Horowitz. Thank you, Mr. Chairman. This is an important 
hearing because it sends a signal that efforts to cast the 
Tiananmen massacre into the memory hole may not--hopefully will 
not--succeed. You are keeping the flame, the candle, 
flickering, and maybe more than that. That is the purpose of 
this hearing, and it means a great deal.
    It means a great deal not only because we remember and 
think of the bravery and the courage of the people who stood up 
for democracy, but Congressman Hultgren, I want to say to you 
what I have said to Congressman Smith. It really gets to the 
core strategic issue of the 21st century.
    We talk about terrorism and we have got to focus on it, but 
the 21st century will largely be defined by one question: Will 
China become a democracy. If the answer is yes, we will compete 
in terms of who builds better cars and computers.
    If the answer is no, in a nuclear age particularly, the 
risks will be extraordinary, and indeed as to terrorism there 
will be a protector and defender and financier of terrorists 
throughout the 21st century.
    I worked in the Reagan administration when the United 
States confronted the Soviet Union. I think the risks of China 
remaining a dictatorship, for China itself and for the world, 
greater by orders of magnitude than they were during the years 
that Ronald Reagan tried to deal with the Soviet Union.
    And so this hearing, and some of the people here are the 
people standing for the hope that the 21st century will not be, 
God forbid, bloodier than the 20th has been.
    Human rights is the focus here, and what do we do? You have 
heard from some of the witnesses, and I know about this in 
personal terms. My wife, a physician, went to China last year 
and was detained by the Chinese to give medical attention to Ju 
Yufu, a man in jail for seven years for writing a poem.
    I just heard yesterday the awful news and the marker of why 
this hearing is important and attention is important. Ju Yufu's 
wife visited the prison and her visits are being cut down. His 
phone calls are not being permitted. They're not even giving 
him medication for some of the grave medical conditions he's 
confronting, including an aneurysm, vascular sclerosis, 
enormously high blood pressure. He is at risk of death and the 
Chinese are indifferent to that. And all these other cases--
Lisa's case of her father in jail.
    Well, what does one do? Let us begin with the fact I 
believe that China is the least ideological country in the 
whole world, and that, for China, policy is made on a cost/
benefit analysis basis. If the costs exceed whatever benefits 
they get for keeping North Korea alive, for keeping Lisa's 
father in jail, if those costs exceed the benefits, China will 
change its policy. Ronald Reagan understood that that's how 
dictatorships operate and that was the basis on which he dealt 
with the--I love the word former--former Soviet Union.
    So the first thing it seems to me that needs to happen is 
that we must raise our voices about these human rights cases, 
as Ronald Reagan raised his voice about the Soviet Refuseniks 
and Pentecostals. Add to that, Congressman Smith, your visit to 
Perm Camp No. 5. These were the kinds of things--they were not 
just blowing in the wind, they were powerful political forces 
that ultimately changed history.
    Today's silence flies in the face of an American history 
where Theodore Roosevelt complained about Soviet pogroms, and 
Ronald Reagan and Jimmy Carter raised human rights issues. The 
fact that we have abandoned that history sends a signal to 
China that it is free to keep these people in jail. We are a 
country with a history where values and interests have been 
closely aligned and when we move away from that equation, 
dictatorships understand that they are free to do whatever they 
want.
    So we do not even have the option of silence. Silence is 
not a neutral factor, it is a negative factor, and has great 
negative weight. So speaking out counts and we can make things 
happen when we do. I wish this President did so more and 
understood what he could gain by doing so.
    The second thing regarding China is, I think, to focus on 
the United Nations. We provide--we write the check for, what, 
25 percent of its budget. Lisa has talked about how her father 
is a designated refugee by the United Nations, entitled under 
international law to be free.
    The fact that he is in jail is in naked, open Chinese 
violation of its UN treaties. This violation is even more 
particularly important as China remains the force that keeps 
North Korea alive. North Korea is Tiananmen every day. Its 
regime stays alive because of the Chinese Government. Well, 
there is leverage that we have. The United Nations has been 
silent and appeasing of China as, in violation of law, China 
sends back North Korean refugees to death camps.
    Why do we not use our leverage on the United Nations 
through the appropriations process to speak out? There is 
evidence that the China-UN treaty actually gives the United 
Nations the right to take China to binding arbitration. I have 
talked to the High Commissioner for Refugees and they are 
scared stiff of doing that.
    Well, that is because China is applying the pressure and we 
are not. We have leverage to move the United Nations to be a 
force speaking out against China's treatment of political 
dissidents and North Korean refugees. It will make a great 
difference if we do that.
    Now let me get to the big one, the Chinese Internet 
firewall. Do not take my word that it is the big one. Hu Jintao 
has said that if China cannot maintain the ``purity of the 
Internet,'' it cannot maintain the ``stability of the socialist 
state.''
    Tens of thousands of China's ablest IT people are at work 
in its firewall bureaucracy, and China spends billions of 
dollars to keep its Internet firewalls going. Such firewalls 
are the Berlin Walls of the 21st century. It is not bricks and 
stones and barbed wire as much as it is electronic firewalls 
that isolate and control millions of people in the world's 
closed societies, and very particularly in China.
    Now I know Congressman Smith knows this, but Congressman 
Hultgren, the Board of Broadcasting Governors [BBG] gets $750 
million a year and we cannot get them to allocate $20 million 
to hold an Internet firewall breakthrough competition. That is 
less than 3 percent of its budget.
    We cannot get the State Department to do it. We have given 
money for Internet freedom and that money has gone down a hole 
and has had no immediate effect. But a $20 million breakthrough 
competition mandated under the FY 2016 appropriations bill, 
which the State Department can fund via access to the Economic 
Support Fund [ESF] could make history.
    If State and the BBG split the cost of such a competition, 
it would take 0.1 percent of the ESF and 1.5 percent of the BBG 
budget. Instead, the BBG now thinks its core mission--in the 
21st century--is as a radio operation and dedicates 95 percent 
to radio and little to Internet firewall circumvention. And it 
does so with the GAO [Government Accountability Office] saying 
$150 million of its spending is duplicative.
    I have friends at the BBG and know that there is an 
internal struggle to move the agency into the 21st century, and 
they are good people. But the present bottom line is what 
Senator Tom Coburn said: That the BBG is ``the most worthless 
organization in the Federal Government.'' That is saying an 
awful lot. We cannot get them to hold a competition to achieve 
an Internet freedom breakthrough.
    Now, why is that important? Hear me, Congressman Hultgren. 
The two most senior people at the Board of Broadcasting 
Governors have said in writing that $20 million would be ``very 
likely'' to achieve such a breakthrough, and they have been 
even more affirmative in private conversations. They 
acknowledge that $20 million will permit, within eight months, 
the following: 25 million closed society residents a day would 
have access to the same Internet that you and I have. The 
President of the United States would have an at-will capacity 
to speak to the people of any country at any time of his 
choosing on their cell phones.
    Now to get to this hearing: 500,000 house church Christians 
in China would be able to participate in a worship service 
hosted in the United States and do so interactively. We could 
have 200,000 Iranians in a town meeting in and out of Iran and 
we could do it within eight months for 0.1 percent of the ESF 
and 1.5 percent of the BBG budget, where 20 percent of it right 
now is spent for waste and duplication. This is the real stuff 
of history and we can make it happen.
    Congresswoman Granger sits on the Appropriations Committee 
for the BBG. Under the current appropriations bill, the FY 2015 
bill, the BBG is clearly authorized to do this. Well, a letter 
was sent two years ago by former Congressman Wolf, whose role I 
hope you will take, Congressman Hultgren, as the amigo to Chris 
Smith standing up for human rights. He can almost do it alone, 
but not quite. Frank Wolf wrote that letter, along with Roy 
Blunt and Jean Shaheen and John Boozman to the BBG saying, do 
that $20 million competition.
    So we really need to achieve Internet firewall 
breakthroughs--and you have seen demonstrations of what field-
tested systems can do, Congressman Smith.
    And by the way, the State Department was asked why we are 
not doing this and the answer was because China would ``go 
ballistic'' if we did. Internet firewall circumvention is the 
most cost-effective peaceful means of advancing American 
national interests and it has not happened.
    Now, let me just say, if I may, that people like former 
Senator Joseph Lieberman understands this, as does former 
Congressman Frank Wolf. They have seen demonstrations of what 
can be done just to scale up field-tested systems that have now 
survived billion-dollar attacks by China. It is just a question 
of getting more IP addresses and servers for those systems.
    We can have 25 million by May 2016, at the latest. Let us 
assume that somehow it does not happen. How in the world can we 
not spend $20 million as against the Chinese spending tens of 
billions of dollars and the Iranians the same? We have dropped 
out of a peaceful war that the Iranians and Chinese say is 
critical to their survival.
    So I hope from out of this hearing will come renewed 
determination. Let me add that Senator Lindsey Graham writes 
the checks on the Senate side and I hope he, too, will play 
that role to allow a free Internet to make history. I think it 
is there to be made. Taking China's word--not mine, not anyone 
else's--taking Iran's word, can allow for the Berlin Wall of 
our time to be peacefully brought down.
    That is what we can do to honor those people who are now in 
jail, Lisa's father and all the people in those photos over 
there, and I hope it will be done. Thank you for hearing me.
    Chairman Smith. Thank you very much, Mr. Horowitz, for that 
very impassioned and insightful presentation. I, too, have seen 
the demonstration, about a three-hour demonstration on how the 
Great Firewall can be pierced. It is gross negligence on our 
part that we have not availed ourselves of that technology and 
others that do exist or potentially could exist and the $20 
million, as you said, is a mere drop in the bucket.
    The reason for the ``no,'' I do believe, is that there is 
that undue fear, a cowering, if you will, by BBG and others 
where they do not want to infuriate the Chinese dictatorship. 
It is just that simple. If we pierce, as you said, the modern-
day equivalent of the Berlin Wall, although 21st century, it 
could make a huge difference. So, thank you.
    Dr. Yang?
    Mr. Horowitz. May I just say one thing for the record? You 
spent three hours watching the demonstration, Congressman 
Smith. I do not want to frighten other Members of Congress into 
thinking it will take that long to learn what can be done. We 
could not stop you from taking the three hours. We wanted to 
leave the room and you wanted to see more of the demonstration, 
but I would say we could do it in 20 minutes. If we can get 
some of your colleagues to watch this demonstration for 20 
minutes they would understand how close we are to making 
history.
    Chairman Smith. Thank you, Mr. Horowitz.
    Dr. Yang?

  STATEMENT OF YANG JIANLI, PRESIDENT, INITIATIVES FOR CHINA/
                    CITIZEN POWER FOR CHINA

    Mr. Yang. Thank you, Mr. Chairman and members of the 
Commission. Thank you for hosting this important hearing.
    Today we the panelists want to cover three distinct but 
related points. First, when it comes to Tiananmen, why we must 
never forget and why we must counter, as your Commission has 
persistently done, China's desperate attempt to infect both its 
people and the outside world with amnesia about these tragic 
events.
    Second, we want to stress the need to pierce the facade of 
President Xi Jinping's phony reforms. Third, we want to address 
the ultimate question of what can the Congress and the 
administration do to strengthen human rights and democratic 
values in China?
    Since both my long written statement and my fellow 
panelists have covered the first two, I will focus on the third 
in the rest of my opening remarks. After the Tiananmen 
massacre, Americans of all political persuasions and faiths 
joined in the protest of the slaughter of innocents.
    Their outreach showed that human rights issues are not 
partisan issues, but when it came to trade relations with China 
there was a big debate. One side of the debate led by 
Representative Nancy Pelosi asserted that U.S. trade relations 
with China must be linked to China's human rights record. This 
idea was embodied in Pelosi and Mitchell's legislation in 1993.
    When President Clinton reversed the policy in 
Representative Pelosi's proposal, he made a terrible mistake. 
The reversal was based on the theory which was widely upheld by 
corporations, columnists, pundits, and policy makers that trade 
would inevitably result in more political freedom and 
guaranteed basic human rights. In order to test that confident 
prediction, Congress established this Commission which 
Congressman Smith chairs.
    Under its mandate, the Commission has annually examined 
just how much China's economic growth and interaction with the 
world has led to real civil liberty and political freedom for 
its citizens and each year the Commission's clear conclusion 
has been: not very much.
    That finding is consistently echoed in the annual human 
rights records of the State Department, U.S. Commission on 
International Religious Freedom, international human rights 
groups, and by the testimonies of my fellow panelists today.
    The lessons are very clear. We must abandon the delusion 
that economic growth will bring human rights and democracy in 
China in the foreseeable future. Instead, Americans of 
conscience should insist that their government confront China 
on human rights issues. They should demand that their 
government openly condemn China's violation of basic human 
rights and demand the release of its prisoners of conscience.
    They should express support for those in China briefly 
asserting or defending the human rights of others and receiving 
brutal punishment for their good deeds, They should support 
such congressional bills as the China Human Rights Protection 
Act that you, Congressman Smith, just introduced yesterday, and 
the Global Magnitsky legislation that you and Representative 
McGarver introduced earlier this year.
    We applaud and fully support these worthy initiatives, but 
in closing I would like to suggest you carefully consider 
another proposal that is at the same time more fundamental. 
Congress should pass a simple, short and sweet China Democracy 
Act.
    We, Initiatives for China, recently hosted our 10th annual 
Inter-Ethnic Inter-Faith Leadership Conference. It was attended 
by a great many members of faith groups, ethnic minorities, and 
advocates in China and abroad of democracy, civil liberties, 
and human rights.
    At its conclusion, we passed a resolution which I want to 
expand on today. It calls on Congress to enact a China 
Democracy Act, recognizing that advancement of human rights and 
democracy in China is in America's national interest and 
calling for an annual assessment of whether the American 
Government is advancing or actually undermining those goals.
    In the early 1990s, I and many others believed that it 
would take only a few years and not much outside physical 
assistance from the U.S. Government to achieve those goals. But 
we over-estimated how soon those briefly resisting in China 
could educate the people about the need for a peaceful 
transition when their voices were being silenced by prison and 
brutal torture and their speech was blocked by modern 
technology.
    At the same time, the Chinese Government has never stopped 
discrediting China's democracy movement with the claim of 
American policy to provide it with secret assistance. In fact, 
the U.S. Congress has never passed something as simple as a 
China Democracy Act, stating American policy to advance human 
rights and rule of law and democratic values in China. It is 
shocking to me that there is no such law at the present time.
    That brings me to the resolution proposed by our conferees 
a few weeks ago for the China Democracy Act. This would not be 
a non-binding resolution. Instead, it would be binding 
legislation flatly stating congressional judgment that 
advancing human rights and democratic values in China is 
decidedly in America's national interest.
    That precludes the currently widespread but inaccurate 
claim that the Congress must balance on the one hand its claim 
to support the universal value of human rights and on the other 
hand America's national interests.
    The bill also would require a report from the President to 
Congress every year on how government programs, policy, or 
action during the prior 12 months has strengthened human rights 
and democratic values in China and, equally important, how any 
program, policy, or initiative has weakened human rights and 
the democratic values in China.
    All Federal departments of government, every single one, 
should have to report on what they are doing to bring democracy 
to China by advancing human rights and the rule of law there. 
The act also put them on notice to take no action, adopt no 
policy, and implement no program that would undercut the 
democracy movement or weaken human rights in China.
    Such a China Democracy Act and annual presidential report 
would give us a better idea of what success we have had so far, 
what caused them, and how we should increase the financial 
resources and deploy them to promote democracy and human rights 
in China. Without such legislation, I very much doubt we will 
be on track and on course to succeed in what we dreamed of back 
in 1989.
    Thank you, Mr. Chairman.
    Chairman Smith. Dr. Yang, thank you very much, again, for 
your steadfast support for human rights defenders and for 
democracy and freedom in China for all of these years, for the 
personal sacrifice you have made, and for this recommendation. 
As you know, with the China Human Rights Protection Act, it 
would specifically sanction Chinese Government officials, 
create a China human rights documentation center for NGOs [non-
governmental organizations], and require a report to Congress.
    So I think we are paralleling, but any additional ideas you 
might have on how we can beef that up, I think you just, in 
your written testimony, have provided some of that. We will 
absolutely take it into consideration. So, thank you for that 
very important input that you have provided.
    Let me just ask a couple of questions and I will yield to 
my good friend and colleague, Commissioner Hultgren.
    First, Lisa Peng, when you testified before the committee, 
my subcommittee a couple of years ago before Xi Jinping's first 
trip, you and the other four, five daughters in total--we 
actually called it the five daughters. It was a hearing of five 
daughters, all of whom--and Michael, you will remember that 
hearing very, very well--have a dad who is incarcerated, is a 
human rights defender, and you were all very eloquent that day, 
as you were again today.
    You had asked--all of you had asked--to meet with President 
Obama and I will never forget. It was so touching. You said, 
``Well, he has two daughters, he will understand and he will 
listen to us when we make an appeal on behalf of our fathers.'' 
We tried for six months through letter, phone calls, and every 
other way we could think of to get the President to meet even 
for 15 minutes with the five daughters, and Xi Jinping came, a 
missed opportunity if ever there was one when he was here.
    But he will be coming again and I will again reach out to 
the President. I hope he will hear that appeal that he meet 
with you and the other four daughters before he again meets 
with Xi Jinping to raise the cases of your dads.
    So we will do that by way of letter, we will include your 
testimony from today, and then the other five testimonies from 
that last hearing. You know what the answer was that we got 
back from the President of the United States, which I find 
absolutely appalling? He said--or they said on his behalf--he 
does not have the time.
    When you say you do not have time for something, you have 
not stated a fact, you have stated a priority. The fact that 
five wonderful daughters was not a priority, that needs to 
change and the President needs to find his voice. I am glad--
when it comes to human rights--I do not care who is in the 
White House.
    I have never shied away, and I have been here 35 years. 
When there was a Republican that was being neutral--and there 
is no such thing as being neutral. I think your point, Dr. 
Yang, a moment ago about pushing forward or not, neutrality is 
being on the side of enabling and complicity. I was very glad 
that you pointed out, Ho Pin, in your testimony--I believe it 
was yours. Let me just find it again--yes.
    When you talked about how George Bush sent a special envoy. 
It was Brent Scowcroft, National Security Advisor, to reassure 
Deng Xiaoping that we were okay maybe not with what was 
actually happening, but that we would not create ripples and 
problems.
    When Frank Wolf and I went a couple of years ago to Beijing 
Prison No. 1 where Tiananmen Square activists, 40 of them with 
heads shaved, looked just like a concentration camp from the 
news reels from the 2nd World War in Nazi Germany, very gaunt 
men who were doing slave labor in Beijing Prison No. 1, 40 of 
them were Tiananmen Square activists. Even then we thought, how 
could President Bush have reassured the dictatorship that all 
is well?
    As you also pointed out, it was Clinton, Dr. Yang, who 
first linked most-favored-nation status with progress, 
significant progress--operative phrase--with regard to human 
rights and then infamously de-linked it when there was 
significant deterioration which gave the cue, gave the nod to 
the dictatorship that profits trump human rights every day of 
the week.
    So to me, that was a reneging that said that it was not a 
priority for us. We need to regain our voice and we need to do 
smart things like Mr. Horowitz is advocating to break the 
Chinese firewall. Again, we will ask again that the President 
meet with you and with the other four daughters, five in total, 
to bring up these issues.
    I would point out for the record that on June 25 we are 
going to be chairing--in my subcommittee, I am going to be 
chairing--a hearing on American universities in China and 
academic freedom. We have invited NYU and they have said 
``yes.'' It has been a year--in invitations--for them to come.
    Dr. Jeffrey Lehman will be testifying, as will others, to 
raise this issue of whether or not we are on the side of 
promoting democracy, human rights, and freedom or whether or 
not we are enabling the dictatorship in that country and 
actually making them even more effective in their dictatorship 
and their repression.
    Mr. Horowitz?
    Mr. Horowitz. Congressman Smith, may I make one 
recommendation to you as in advance to the Xi Jinping visit? 
Get in touch with George Schultz, would be my recommendation. 
He tells this great story of Reagan's great breakthrough of 
when the Soviet Ambassador came to him and said, ``What is 
going on with your boss? I try to talk to him about ruble 
stabilization and nuclear war and whatnot, and all he wants to 
do is talk about Jewish Refuseniks and Pentecostals. I can't do 
any business with him.'' And Schultz, who was very shrewd, said 
``I have got the same problem. If you want to deal with Ronald 
Reagan you have got to start releasing Pentecostals and you 
have got to start treating Refuseniks differently.'' Of course, 
that happened and with it cracks began to develop in what was 
thought to be a 10-foot thick Russian Iron Curtain wall.
    So former Secretary Schultz, one of the most distinguished 
Americans, understood what speaking out for dissidents in 
dictatorships can produce. I think if he could speak out and 
tell the story about this simple bargaining 101 strategy and 
its effectiveness, he could be a great ally before the Xi visit 
if you could get him to tell that story.
    Chairman Smith. That is a great story. The lessons learned 
from the Soviet Refuseniks and the Jewish Refuseniks is a great 
one. I went to Moscow many times during the Soviet dictatorship 
and Schultz always met with the dissidents first, then met with 
his Soviet interlocutors. We have asked President Obama to do 
the same thing on his trips to China: meet with the dissidents, 
listen to them, provide an umbrella of protection and concern 
and empathy for their plight.
    Mr. Horowitz. But here is the point: Even if you did not 
empathize a fig about fingernails getting pulled out of pastors 
or life sentences of dissidents like Lisa's father and so 
forth, history teaches you that if you want China--Reagan 
understood this with the Soviet Union--to talk about weapon 
systems, to talk about all the bilateral issues that the State 
Department regards as important, the best bargaining technique 
to make this happen is to start talking about human rights. 
They then change the subject and start to bargain on those 
other issues.
    So the lesson to be learned here is that this is not just--
they put your efforts down, the efforts of the three of you 
here, as some knee-jerk reaction. That is very nice, thank you 
very much, they tell you, but we are big boys talking about the 
big issues, and human rights controversy gets in the way.
    They do not understand history in the way Ronald Reagan did 
and the way it has happened, in the way Teddy Roosevelt talked 
about pogroms on the Soviet Union in 1900. Human rights 
advocacy is a great power tool to get dictatorships to start 
coming to terms on all the issues. They fear it most, are most 
vulnerable, if we talk about human rights. So it is a 
Bargaining 101 issue here and it is that history that ought to 
be communicated to the Obama administration, I think.
    Chairman Smith. Before yielding to Commissioner Hultgren, 
let me just say, Dr. Teng, you made a very profound statement 
when you said ``History will require us to answer one question: 
Did we stand on the side of tank man or on the side of the 
tank? '' That is just very profound and unfortunately I will 
not even say the jury is out; we have enabled and stood on the 
side of the tank as a society and as a government.
    Mr. Hultgren?
    Representative Hultgren. Thank you. So good to be with you. 
I appreciate the incredible work that all of you are doing. I 
also am so honored to be with two of my heroes. Chairman Smith 
just is a tireless fighter for life and for freedom and for 
human rights. It is so powerful. And my good friend Trent 
Franks as well. Both are incredible mentors to me and it is a 
privilege to be a part of this Commission and know that we 
will--absolutely can and will--make a difference together. So, 
thank you.
    I have a couple of questions, if I could. I apologize, I 
had a couple of hearings this morning and so missed some of the 
early statements, but wanted just to follow up on that.
    Dr. Teng, I wonder if I could ask you quickly about current 
crackdowns on freedom of speech, association, assembly, and 
religion that have begun after Xi Jinping took office, and why 
do you think this crackdown has been so severe?
    Mr. Teng. Thank you. Yes. As I have mentioned today, the 
Internet, universities, the NGOs, human rights defenders are 
facing a very severe crackdown. First, we can see the Communist 
Party feels the ideology increasing, especially as we analyzed 
Document No. 9.
    We can feel the Communist Party is fearing the possible or 
the potential color revolution so much and they think the 
Western NGOs, the Western information, media, universities are 
influencing Chinese intellectuals as well as ordinary people. 
Besides the ideology crisis, we know that the Party is also 
facing a lot of social and political problems that clashes 
between the people and the comments and the Xinjiang Uyghur 
area and Tibetan area and the gap between the poor and the 
rich.
    Many, many mass protests are related to corruption or 
pollution or land-taking. So superficially we can see that the 
Communist Party is very, very strong and powerful and 
confident, but in reality obviously the Party feels insecurity. 
They are not confident. Thank you.
    Representative Hultgren. Thank you.
    Ms. Peng, thank you for being here. I want you to know, 
certainly for myself and others, your father and your family 
are in our thoughts and prayers and we appreciate so much your 
strong voice certainly fighting for him, but for others as 
well.
    I wondered--and again, I apologize I was not able to hear 
your testimony--if you could just give a brief update to me and 
to others, and if you have already covered this I apologize, 
but how your father is doing, his health, is he getting proper 
food and care? When was the last time you communicated with 
him, and what your sense is of his current condition?
    Ms. Peng. Thank you for being here today. My father is 
still suffering from poor health with no medical care. He has 
suffered from many heart attacks, kidney stones, bronchitis, 
arthritis. He has been serving his life sentence for the past 
11 years and, frankly, it is a miracle to me that he is still 
surviving and motivated to continue to live.
    I think this is because he has faith that the United States 
will stand for its own values, the same values for which my 
father fought. I think he has faith that the United States will 
understand that its values and its interests are one and the 
same, and for that he continues to exercise, to write, and to 
do whatever he can to push through.
    His courage to continue to live is what inspires me to 
continue advocating for his freedom here in the United States 
because if he who has spent 11 years in prison can still have 
hope that the United States will stand for its values, then I 
certainly do. Like Mr. Horowitz said, I think it takes 
Bargaining 101. I think it requires the United States to speak 
up, to mention the names of people like my father, to use to 
its advantages China's contempt for international law.
    In fact, China has made it easy for us, the United States 
and the international community, to take action and make a case 
for political prisoners like my father, because much of what 
they've done is illegal, even according to their own law. For 
example, my father is a U.S.-based dissident with UN refugee 
status who fled persecution, so his arrest in Myanmar by 
Chinese police violates the principle of non-refoulement. He 
was denied his right to due process, he has suffered the past 
11 years from no medical care, and his requests for medical 
parole have all been ignored. So I think China's contempt for 
rule of law makes it easy for us to support cases like my 
father's and to bring up his name.
    Representative Hultgren. Well, thanks. Your father, his 
example, certainly is inspiring and quite honestly convicting 
to me and to us, as well. I know we can, and need to do and 
must do, more. So thank you again for being a part of this and 
being here today.
    Can I have time to ask one more question? Is that okay?
    First of all, before I have a question, Mr. Horowitz, thank 
you. I am in, whether it is the 20-minute version or the 3-hour 
version I definitely want to. Let us schedule that and maybe 
see if we can get some other colleagues to join in as well, 
because that is to me, again, unconscionable and, with such an 
incredibly small investment, the world change that could happen 
with that, so I definitely want to see that.
    I wonder if I could just kind of wrap up, I guess, Dr. 
Yang, just to ask quickly. It appears many human rights 
advocates and legal defenders in China also belong to religious 
institutions that exist outside of state control. I wonder if 
you could discuss how China's religious communities play a role 
in fostering human rights awareness and political reforms.
    Mr. Yang. Thank you for your question. Before I answer this 
question I want to follow up with Teng Biao's answer to your 
previous question just now. There was a New York Times article 
a few days ago. The title is, ``China's Security Laws Elevate 
the Party and Stifle Dissent.'' Mao would approve. ``Mao would 
approve'' means China is on the way back to the Cultural 
Revolution. Mr. Ho Pin, in his opening remarks, mentioned Gao 
Yu.
    Gao Yu, for your information, is a 71-year-old journalist 
who was charged with leaking state secrets. What she gave out 
to the international media actually was the CCP's [Chinese 
Communist Party] Document No. 9, which actually states the 
seven no-speaks or seven perils. I will just give you an idea 
of what is in it.
    The seven perils are: constitutional democracy, press 
freedom, market economy, universal values, civil society, 
independent judicial system, and CCP past mistakes. So you can 
see that censorship has been brought to another level ever 
since Xi Jinping assumed his leadership.
    Back to your question. The religious groups are playing a 
very important role in China. There is no civil society, nor 
any independent organizations allowed in China. The Chinese 
Government is suspicious of any organization because if people 
organize they can do more than individually. An organized force 
is always a threat to the Chinese Government.
    But you understand that religious groups are so committed, 
they are more committed than other civil groups, so they come 
together and become a very important force, demanding freedom. 
So they may just begin with a freedom of religion approach, but 
in the end they will help China liberalize in other fields as 
well. I will just give you one example.
    There is a house church organization which is very big in 
China, especially in Beijing. When their members form NGOs on 
environmental issues, for example, the Chinese Government tries 
to target them. But when they understand that there is a big 
religious group behind them, they will be more careful dealing 
with them.
    So I think religious groups are playing a very important 
role. But at the same time, religious groups have received 
persecutions, severe persecutions in the past two decades. 
Falun Gong practitioners are the most severely persecuted in 
the past two decades, so we cannot forget them and we should 
continue to advocate for the imprisoned religious people in 
China.
    Representative Hultgren. Is it okay if Mr. Horowitz 
comments just quickly?
    Mr. Horowitz. I really do apologize, but I think this is so 
central. I am doing it because Congressman Franks is here and 
you have been the leader on the issue of religious persecution, 
and very particularly in China.
    I want you to know that in doing so you are not just out 
there protecting Christians, you are making a difference for 
human rights throughout China. When we first, with Congressman 
Smith and former Congressman Wolf, tried to pass the 
International Religious Freedom Act [IRFA], the New York Times 
was saying how could these right-wing Christians be out there 
speaking for this minority sect when all these great Chinese 
human rights heroes--I forget, senior moment, the name of the 
great one who was in jail for like 15 years. Wei Jingsheng--and 
the columnist at the New York Times said why aren't they 
focused on Wei Jingsheng?
    Well, Wei Jingsheng got out of jail while we were trying to 
pass the IRFA bill and he became its No. 1 advocate. He did so 
because, he said, if the word goes out to the Chinese people 
that the regime cannot even burn down a church, there will be 
freedom for political dissidents, for artists, for everybody in 
China. That was exactly the story of what protecting 
Pentecostals and the Soviet Refuseniks did. It sent out the 
word that there was freedom for everybody.
    I am a Jew who has worked on Christian persecution. I am in 
such awe of these Christian groups in China and the leadership 
and the courage they exercise, and the fact that they are the 
spear points for freedom for everybody.
    I will just tell one last story of a major figure--I do not 
want to name her--in Chinese human rights efforts. She was 
very, very successful in China in the fashion industry and she 
tells the story about how she thought her life just was hollow. 
She was making money but, she said, ``but I do not want to wind 
up with lots of pretty dresses. There's more to life than 
that.''
    So a friend of hers said, ``Why don't you go to church? '' 
And she said, ``Oh no, come on, no church for me, I'm not into 
that sort of thing.'' The friend bugged her and finally she 
went to church. She said when she went in that church in China, 
a house church, she said, ``For the first time in my life in 
China I walked in a room and everybody was smiling.'' She had 
never seen that. She has become a very devout, quietly 
committed Christian whose bravery emanating from her faith has 
her dealing with one-child policies, and dealing with all sorts 
of human rights advocacy.
    So your question could not be clearer that when we--when 
you, Congressman Franks--protect religious leaders who are 
persecuted in China, you are protecting every atheist in China, 
every activist in China. That is what history tells us and that 
is what is happening in China right now.
    Representative Hultgren. Thank you. I yield back.
    Chairman Smith. I would like to yield to Chairman Franks. 
Commissioner Franks serves as Chairman of the Constitution 
Subcommittee on the Judiciary, but he also is the Chairman of 
the Religious Freedom Caucus in the House.
    Representative Franks. Well, it would be better if I left 
the room because I cannot improve the circumstances here on my 
behalf at all. I appreciate the kind words. I just say to you 
that I know that it seems obligatory always, but I truly 
believe that Chris Smith, when it comes to human rights in the 
Congress, is the four-star general. He is the man that when 
people ask me about something, sometimes they get a blank stare 
and I say, ask Chris. He has been a hero of mine for a long 
time. I have watched Congressman Hultgren ever since he has 
been here. He has always been on the side of human dignity and 
freedom.
    Let me just say, while we are walking along that road, 
those of you that have been activists for human rights and 
human dignity and human freedom on China, I do not think you 
could possibly understand the importance of your role because 
you bring to the whole world the recognition inside a country 
that is not known for human rights.
    You are bringing the whole world the reality. If you win 
China today, you will win the world tomorrow. You have an 
opportunity to be a catalyst for the most profound kind of 
change and I just cannot express to you the affection and the 
respect that I feel for you for that commitment.
    Not to patronize you, Mr. Horowitz, but when you made the 
comments a moment ago about the notion if we focus on human 
rights, that sometimes it drives our potential partners to the 
table on some of these other issues. I have got to be very open 
with you, that never occurred to me.
    I always thought, well, when you speak of human rights you 
are speaking of the greater issue because if we can create a 
collective, introspective examination of these countries, their 
own heart, that maybe that will change things in a big way and 
we will not be adversaries. But still, your words spoke very 
powerfully to me and I found them extremely compelling and I 
was embarrassed that it had not occurred to me before because I 
could not agree with you more.
    When we speak of the true foundational issues in some of 
these countries that have an intrinsic--not only a fear of 
discussing that, but a recognition of their own failure in that 
regard, it pushes them over and at least we get some efficacy 
in our discussion with them.
    Then one other thing I would mention and then I will have 
one question for everyone. That is the whole notion, again, Mr. 
Horowitz--that he mentioned, when we talk about religious 
freedom it is the cornerstone of all other freedoms. If we have 
religious freedom, out of it flows free speech and a lot of 
other wonderful things.
    Countries that practice religious freedom do not find 
themselves at war with each other most of the time. They do not 
find themselves enemies of the human family. Those who practice 
religious freedom do not suggest that we have no differences, 
they simply suggest that we can be kind and decent to each 
other in spite of those differences. It is, in my judgment, one 
of the great hopes of humanity. Again, no one practices that 
more than you.
    So I would have one question for all of you. I did not mean 
to give a speech, Mr. Chairman, but I have one question for all 
of you. In a very brief way so that we can kind of take 
advantage of the time here, because I believe that you all have 
a collective and a derived wisdom here and understanding of the 
real challenges we face, you can apply it to China or to the 
greater cause of religious freedom and human rights.
    If you could say to America one brief thing that you think 
we should either know as a people or do as a people to 
ameliorate this tragedy of people across the world not having 
the recognition for the fact that they were created in the 
image of God, this human dignity that is intrinsic to all human 
beings, this religious freedom, this freedom to be human, could 
you just give me your top line thought and then I will turn it 
back to the Chairman with gratitude.
    Mr. Biao, first. Dr. Teng?
    Mr. Teng. Yes. I would say that religious freedom is the 
most fundamental of human rights and I hope that the United 
States and Western democracy can mediate and take strong action 
to punish the perpetrators of violating religious freedom, to 
stop these perpetrators from entering the Western world.
    Representative Franks. Have any thoughts?
    Ms. Peng. I would say that the reason we should care about 
religious freedom in other nations, not just in our own, is 
that the fundamental freedoms that come from religious freedom, 
are the values on which our nation was founded. In order to 
respect our own values and to hold our own actions to the 
highest standards, we need to continue to promote religious 
freedom and other freedoms in other nations. So in a sense this 
is about what we can do to respect our own nation's values as 
much as it is about promoting freedoms around the world.
    Representative Franks. Thank you.
    Mr. Ho. My sentence would be that if human rights freedom 
in China cannot be improved, then America's foundation on human 
rights and freedom would be also impacted. It will bring the 
erosion of U.S. freedom. In this New York book fair, the 
Chinese officials put out their books. In China, you do not 
even have the freedom to publish books, but the Chinese 
officials can bring their own books to a book fair in New York.
    Representative Franks. Thank you.
    Mr. Horowitz. Can I just modestly shift the question? I do 
not think the issue is reaching the American people, I think 
they are reached. I do not think the issue is reaching Members 
of Congress. For the most part, they are reached and those who 
are not do not dare vote the other way. The real question is 
congressional strategy that can be effective. I think we send 
the wrong signal when bills get introduced and they do not get 
passed. It tells China they are scot-free.
    So I have a very specific suggestion as a former general 
counsel of the Office of Management and Budget. I hope that 
you, Congressman Smith, can gather together 40 or 50 Members 
and come up with a package that is effective but doable in the 
FY 2016 appropriations bill when you take up the State Foreign 
Operations appropriations bill.
    Yang Jianli has talked about an annual report. Requiring it 
is the sort of thing that can go in an appropriations bill, 
which can do the very thing Jianli wants done in his stand-
alone bill. I think that a provision in the coming FY16 bill 
that does not merely authorize but mandates a break-through 
competition for Internet firewall circumvention would be 
another provision that could go in a reform package.
    Something else would deal with the United Nations saying 
that the United Nations must do X to enforce its treat, which 
China regularly breaks. That is the tool, in my judgment, to 
get Lisa's father out of jail, to force China to live up to its 
treaty obligation, to get the United Nations much more 
aggressive on that score. I would be happy to work--and many of 
us would be happy to work--with a small group to help produce 
such a reform package.
    But if you could get 50 Members, bipartisan, Congressman 
McGovern, others, on a bipartisan basis to approach Speaker 
Boehner, Congressman McCarthy, Congressman Rogers, 
Congresswoman Granger and the House leadership and say this is 
what we have got to have in the FY 2016 foreign operations 
appropriations bill, the leverage you could exercise and the 
reforms you could achieve would be enormous.
    I think you can put some very historic things in the FY 
2016 bill. You have got Congresswoman Granger who starts on 
your side, and Congressman Rogers for sure on your side. So I 
think that by just working effectively, quietly at the 
beginning, you can promote religious freedom and liberty with 
powerful tools, signals, and real actions that will not involve 
just talking. And you can do it within the next month or so in 
the FY 2016 appropriations act. Thank you.
    Representative Franks. Well, Mr. Chairman, I hope that we 
can follow up specifically and practically and definitively and 
proactively--and use all these other kind of words--I mean, in 
other words, seriously about this because I think the man makes 
a lot of sense.
    Mr. Horowitz. You just whistle, I will be there.
    Dr. Yang Jianli.
    Mr. Yang. Thank you, Congressman Franks, for your question. 
As a Christian, I understand how important religious freedom 
is. It is so important that people can find the source of their 
conscience and also they can act according to the convictions 
of their conscience.
    In China, there is no religious freedom. At this point I 
want to bring to your attention what is happening in China. The 
Chinese Government has been making great efforts to demolish 
churches in a few provinces, mostly in Zhejiang province. That 
happened because the Party Chief saw the church was taller with 
the cross. It is taller than the Party Committee's building so 
he felt jealousy of the influence and jealousy of power, so he 
ordered the demolition of many churches in Zhejiang province.
    So that gave us an example that a one-party system can 
never guarantee religious freedom. That is something we try to 
change in China. At this point I want to mention to you, 
Congressman Franks, before you leave that I think America has 
had lost opportunities in the past two decades to change China 
right after the cold war.
    The mistake was made simply because what I called the 
compartmentalization of policies which put human rights against 
national interests of the United States. So today in my opening 
remarks I emphasized advancing human rights and democracy in 
China is in America's interests.
    Representative Franks. Absolutely.
    Mr. Yang. There is no such law in this country to say it, 
to regulate the Federal Government's work in that regard. I 
bring with me today two books. One is by former Congressman 
Barney Frank and another is by former Secretary of Treasury 
Henry Paulson. Both books talk about the case that they worked 
together to get my freedom, how they worked together, one from 
Congress, the other from the executive branch. They worked 
together.
    Actually, they got my release when Secretary of Treasury 
Paulson went to the first U.S.-China Strategic Economic 
Dialogue, which is not about human rights on the surface, but 
in the meeting he mentioned my case and pressed the Chinese 
Government to release me, he said, literally said, ``This case 
is very important for me. If you want to continue the dialogue, 
you have to respond.'' Then they responded and released me just 
two weeks later.
    Representative Franks. Yes.
    Mr. Yang. So that is the example. That shows how the 
congressional members, the Congress and the executive branch, 
can work together for human rights even on occasions which on 
the surface are not human rights issues related.
    So what I advocate is we have to end compartmentalization 
of American policies and to link every single work of the U.S. 
Government to human rights because it is in the interests of 
this country. Thank you.
    Representative Franks. Thank you.
    Mr. Chairman, I have come to a lot of your hearings and 
they are always very insightful, but I think this one has been 
especially so and I hope we follow up on what Mr. Horowitz and 
some of the others have said. Thank you for your commitment. 
Thank all of you.
    Mr. Horowitz. Congressman, I apologize for talking so 
darned much, but this is such a rich hearing. I agree with you. 
I cannot let Jianli discuss his imprisonment without telling, 
very quickly, a little bit about him. He had a five-year 
sentence in jail, much time in solitary confinement.
    This man wrote poetry in his own mind while he was in 
solitary confinement and he published it afterward. But what 
happened was, the Chinese said after a period of time, ``We 
will let you out and as soon as you get out of prison we are 
going to kick you out of the country.''
    He said--and this is the bravery of these dissidents like 
Jianli--``Well, you cannot tell me when to leave my country. It 
is my country. I will leave when I think the time has come.'' 
``Well,'' they said, ``that is okay but we will stick you in 
jail for your full term.'' He said he was ready for that. I do 
not know, he probably served another year or so in jail just to 
send that signal of freedom and independence and patriotism.
    But it also sends the message that this dangerous guy--and 
the Chinese knew how dangerous he was--got released when a 
Secretary of the Treasury said quietly we ought to do it.
    I would say one other thing on the religious side. Xi 
Jinping may be making a strategic mistake. He is going a little 
too far. He is not being shrewd here.
    On the religious side, one thing that ought to be on the 
table at this hearing is that the Three Self-Patriotic 
churches, which used to be held out as patriotic Chinese 
believers supporting the Communist regime, they are now being 
subject to persecution so that the Three-Self churches and the 
House Church movements are working together and becoming 
allies--and this is a great movement that is happening and 
developing in China.
    As Congressman Smith knows, both are now on the same side 
more and more which creates a critical mass of protesters so 
that the power of the Christian community and the Falun Gong 
and the Uyghur community is greater than it has ever been 
because Xi Jinping is taking persecution one step too far. So 
the work you are doing has an even more fertile possibility of 
changing China and making history.
    Representative Franks. Thank you. Thank you, Mr. Chairman.
    Chairman Smith. Thank you. Just let me conclude with one or 
two final questions and a comment. First of all, we do meet 
again today to remember the sacrifice, even unto death, of 
those people and those who endured severe injury and have 
suffered decades of incarceration on behalf of internationally 
recognized human rights.
    Tiananmen Square could have been the turning point for 
China. I believe that the spirit of Tiananmen Square, of the 
students who were there, inspires, as I said in my opening, 
everyone, including the Congress, to never let up, never lose 
focus that the people of China absolutely yearn to be free and 
deserve to be free. When we enable a dictatorship, we then 
become complicit in their misery.
    Let me also say that Xi Jinping--and I read that article in 
the New York Times as well and was again disturbed by this race 
to the bottom of Xi Jinping--it seems as if he is seeking to 
channel Mao Zedong and to emulate the excesses of that man and, 
of course, to the great detriment of the Chinese people.
    But when we talk about what can be done, what can you say 
about a country that continues to incarcerate the best and the 
bravest and the brightest of China, as it did with Dr. Yang and 
as it is with your dad and so many others? It still holds in 
jail the Nobel Peace Prize winner Liu Xiaobo.
    The world cannot forget that, and we will not forget it, 
certainly, on this Commission. Many of us in Congress will not 
forget that, or his wife who has suffered, kind of like being 
jailed herself because of that incarceration.
    I would call on the administration again to enforce the 
law. China gets the designation ``Country of Particular Concern 
[CPC]'' and there are 18 or so specific prescribed sanctions 
that can be meted out because of their extreme violation of 
religious freedom and the persecution of believers of all 
kinds.
    And as you said, the Falun Gong get a special set of 
repressive measures meted out against them. Yet, the only 
sanction that the administration continues to use is almost 
like a double-hatted sanction, the Tiananmen Square sanctions 
on military cooperation and technological transfers, while 
there are several other sanctions that ought to be imposed upon 
the PRC because of their designation ``CPC.''
    They ought to be Tier Three under the Trafficking Victims 
Protection Act, the law that I sponsored. There is no doubt 
that they have become the worst violator in a number of human 
trafficking cases, largely attributable to the one-child-per-
couple policy and the lack of women because women have been 
systematically exterminated through sex-selection abortions.
    They were Tier Three for one year and had an automatic 
downgrade, and then were replaced back up to the Watch List, 
which I thought was a very cruel misdesignation on the part of 
the administration because Tier Three could need more sanctions 
when it comes to the atrocity of human trafficking.
    There is a visa ban in effect. I wrote it [the ban] in 
2000. They are not enforcing it for those who are part of the 
cruelty of the one-child-per-couple policy. Less than 30 people 
have been sanctioned years-to-date since 2000.
    New laws. We need those. We need them now and we will work 
hard on those. Michael, as you know, there are always interests 
starting at the White House and the State Department who are 
loathe to put anything that looks like a sanction on the 
country of China, so we have huge obstacles to overcome there.
    I would ask all of you in conclusion, if you could--and 
again, there are opportunities. We interface with the Chinese 
and with leaders there, but it is not the same as the executive 
branch. They are the designated hitters, if you will. They are 
the ones who are empowered by our Constitution to be the point 
people, the President being the number-one person, to talk with 
and to meet with presidents and prime ministers.
    There is an executive meeting going on, at the end of this, 
on economic issues, a dialogue. The human rights issues, Dr. 
Yang, need to be incorporated. That is at the end of this 
month. Very often, they are hermetically sealed away from all 
other talks. Remember, Hilary Clinton said it.
    It was an insight into the modus operandi of this State 
Department when she said she is not going to let human rights 
interfere with global warming issues and peddling U.S. debt 
through Treasury bills to the Chinese on her first trip to 
Beijing as Secretary of State. I am fearful that there might be 
a perfunctory mention of, oh, human rights, let us put an X in 
that box and get that off the table. Names have to be tendered.
    This Commission has the best prisoners list, and I applaud 
our staff for the tremendous work that they do in compiling, 
vetting, and ensuring that political and religious prisoners 
and their case stories and their families are all compiled in a 
way that is actionable. That needs to be conveyed to the 
Chinese at every meeting.
    My question to all of you in conclusion is that the 
President will be meeting with Xi Jinping, as we all know. When 
he met with Hu Jintao, it was an utter failure the first time, 
especially when they had the joint press conference and a 
reporter asked about human rights and Hu Jintao had trouble 
understanding the question through some alleged technical 
difficulty. The President jumped in and said, ``Oh, but they 
have a different culture in China and a different political 
system.''
    It was so bad that the Washington Post wrote a scathing 
editorial that said, ``Obama Defends Hu on Rights'' and said 
``the culture understands human rights.'' That is why the 
gulags, the laogai, are filled to overflowing with people like 
Dr. Yang and so many others, your dad, who have suffered to 
ensure that those rights someday are respected in the People's 
Republic of China.
    The other point was a political system. It is a 
dictatorship. Let us call it for what it is. So what would all 
of you say to the President when he meets with Xi Jinping? What 
should he say to him? Should he hand him a list and say, come 
on, Mr. President, it is time. Join the 21st century. These 
people are good people. They love your country. They are 
patriots in the greatest sense of that word and they just want 
human rights and fundamental freedoms respected. What would you 
say? Dr. Teng, we will start with you.
    Mr. Teng. Yes. If I have a chance to talk to President Xi 
Jinping I will tell him, stop the persecution of human rights 
activists and release all the political prisoners and prisoners 
of conscience and start the process of democratization or there 
will be no future for the Communist Party, there will be no 
future for the Chinese people. If the Chinese Communist Party 
still commits more crimes against universal values, it will be 
punished definitely in the future.
    Ms. Peng. I would say to the President, who seems so eager 
to preserve multi-culturalism around the world, is that one 
man's cultural diversity is another man's life sentence, his 
denial of medical care, his denial of basic liberties, his 
being torn apart from his family.
    But I would also note that the ``culture'' the President 
bends over backward to appease, is not the culture of the 
Chinese people. The culture of the Internet firewall, violating 
internal law to kidnap political prisoners, denying freedoms--
that culture that the President tries to ``respect''--is the 
culture of the Communist Party.
    I think if he really were in the interest of respecting 
cultures, as he says, he would do well to realize that one 
demonstrates respect for another culture not by tacitly 
consenting to anything they do, such as imprisoning human 
rights activists, but rather by holding those cultures to the 
highest of standards. That to me is the expression of the most 
genuine and truest respect for another culture.
    Chairman Smith. Thank you.
    Mr. Ho. Xi wants to come to the United States for 
recognition of China-U.S. relations as a relationship between 
two powerful countries. But if Obama accepts this relationship, 
Obama will also accept China's violation of human rights.
    During the Jiang Zemin era, Clinton met with him and 
established this strategic partnership relation and actually 
gave a weapon to them for violating human rights--it was a 
mistake and gave them a weapon for violating human rights. We 
do not want Obama to repeat this mistake. Thank you.
    Mr. Horowitz. I have a wonderfully ironic point but it 
would be the most ultimate strategic point that I would urge on 
the President to say to Xi Jinping. I think he should say:

        ``You know the greatest source of power that any 
        government can have is for its currency to be the 
        world's trading currency. It means that if you are the 
        world's trading currency you can run your printing 
        press and just print pieces of paper and the rest of 
        the world gives you goods and services.
        ``Well, Mr. Xi, as long as you have an absence of human 
        rights and religious freedom in China, it does not 
        matter what our debt to you will be, it does not matter 
        how much your GNP goes up and how much ours may go 
        down, the dollar will have no competitor because the 
        world will not cede to you the kind of respect and 
        authority that the dollar has and allow the RMB to be 
        its trading currency.
        ``You want to compete with us for world power? Release 
        Lisa's father.
        ``The power that the release of dissidents would have 
        and the power you have in terms of being a more 
        powerful factor in the 21st century by implementing the 
        agenda of this Commission is greater than all of your 
        defense spending in terms of what China will be in the 
        world.
        ``No matter what happens to your economy, the world 
        will never cede to you the kind of power that America 
        has. When you become a democracy, when you implement 
        human rights, you will be a much tougher competitor to 
        the United States.''

    I think that would be such a strategic way of the President 
saying, become a democracy, compete with us, and even if you 
win some trade competitions, the world and the United States 
will be in better shape.
    All these dissidents who are accused by the regime of being 
anti-China, they are the greatest pro-China people in the world 
because once human rights is implemented in China, China can 
project its economy and its economic strength into world 
respect in ways that all of the armies and navies it may put 
together never will.
    Mr. Yang. I would urge the President to convey a very clear 
message to President Xi Jinping that how the Chinese Government 
treats its own people matters to the relationship of the two 
countries because the American people care. They care, so as 
President I must care because America is a democratic country. 
There is no normalization of so-called new power relations if 
China is not on the way toward democracy. If there is no 
progress of human rights, there is no normal relationship 
between the two powers.
    It would be remiss of me if today I do not mention a group 
of Chinese students studying in this country who were born in 
the 1980s and 1990s and who recently signed an open letter to 
their counterparts in China, calling on them to pursue the 
truth, the truth about the massacre and pursue democracy and 
freedom in China. That shows the failure despite its best 
effort on the part of the Chinese Government to infect amnesia 
about the tragic events and the failure to brainwash the 
younger generation.
    That also shows democracy, freedom, and human rights are 
not a gift for one generation, it is a common, universal desire 
for all human beings. Here at the hearing I want to thank them. 
I want to thank them because they give us hope. Thank you again 
for your leadership. I lost count of how many times I have 
testified at the hearings you hosted. Ever since 1996 when 
China's defense minister came here, you hosted the first 
hearing on China's human rights; 15, 16, 17, 20 hearings. I 
lost count. Thank you very much for your leadership.
    Chairman Smith. Well, Dr. Yang, this is my 52nd hearing on 
human rights in China.
    Mr. Yang. Fifty-second? Oh, my God.
    Chairman Smith. And the hearing you mentioned--and again, 
it is so apropos to this hearing. You recall and you were so 
eloquent that day. Chi Haotian, the defense minister of China, 
was here, got a 19-gun salute at the White House, was at the 
Army War College, and was feted as a respected diplomat, even 
though he was the Butcher of Beijing, the operational commander 
who sent in the tanks.
    We called on President Clinton to repudiate that and he 
would not, so then Chi Haotian, as you recall so well, went to 
the Army War College and a mid-level officer asked about how 
many people died at Tiananmen Square, and Chi Haotian said no 
one died at Tiananmen Square. He thought he was in Beijing 
where the big lie would be amplified by the local media.
    So we put together a hearing in two days, and you 
testified, as did some others. We had a person from the 
People's Daily who actually reported on it and then got into 
big trouble, went to prison himself, and others who saw what 
went on.
    The Time Magazine correspondent who watched from his 
balcony as people were killed. We invited Chi Haotian or 
anybody from the Chinese Embassy to sit there and tell us their 
side of the story, and they refused so we had an empty chair. 
But that denial, which the students are speaking to students 
back in China about, you can only suppress the truth for so 
long.
    As Michael Horowitz has said, when the Internet finally 
opens up widely, the truth about Tiananmen Square will be well-
known and the agony suffered by so many will be well-known. 
That will be part of the reform process. But you were eloquent 
that day and I will never forget it.
    Mr. Horowitz?
    Mr. Horowitz. As we are closing, I cannot not do it without 
complimenting you and your leadership, however uncomfortable it 
may make you, Congressman Smith. This is a lesson in history. 
You have these hearings and how you do not get discouraged is 
almost beyond me, because people say, ``Oh, another hearing, 
who cares, you're not making a difference, the `big' issues are 
moving forward and not yours.''
    Well, I lived in Mississippi when the University of 
Mississippi Law School was first integrated. I have watched 
what has happened in Eastern Europe. People think that history 
is a process of gradual progression until it reaches a point 
and things change.
    That is not how history is made. History is a flat-line 
that declines a little bit from time to time, but keeps alive 
because a handful of people just keeping a torch lit, keep a 
little flame flickering, and they go on and on and on with 
people saying, ``Why are you wasting your time? '' And then, 
overnight, everything changes and people say, ``How did it 
happen? '' Overnight not gradually, what was impossible becomes 
inevitable. I saw it in Mississippi, we saw it in the Soviet 
Union.
    People who used to talk about freedom in the Soviet Union 
were put down, why are you bothering me with Captive Nations 
Week resolutions when we have got to negotiate nuclear treaties 
with this power that is going to be around for a thousand 
years.
    So I have to say about your leadership in keeping that 
flame of freedom flickering, that there will come that 
overnight day that dictatorships will fall and people will say, 
``Where did this come from? We never assumed that it would 
happen.'' When it does, your leadership, in my judgment, will 
have been an irreplaceable component of that development, and 
it is going to happen. Thank you.
    Chairman Smith. I beg to differ. It is the people at this 
table that are making all the difference in the world, and the 
people that are incarcerated and struggling every day in China. 
But thank you so much.
    I appreciate it again. We will continue on. Our next 
hearing, as I said, is on June 25. It will be in my 
Subcommittee on Human Rights and it will be on campuses like 
the NYU campus in Shanghai and others, whether or not that is a 
help or a hindrance. So thank you so much.
    We remember with prayer and deep awe those who suffered at 
Tiananmen Square for a new China where freedom and democracy 
flourish. God bless you all.
    Without objection, the opening statement by Senator Marco 
Rubio, our Cochairman, will be made a part of the record.
    Thank you so much.
    The hearing is adjourned.
    [The prepared statement of Senator Rubio appears in the 
appendix.]
    [Whereupon, at 12:15 p.m. the hearing was concluded.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                    Prepared Statement of Teng Biao

                              june 3, 2015

                    It's Time To Change China Policy

                    influence of tiananmen massacre
    Twenty six years have passed, but the killing did not end in 1989. 
Many innocent citizens labeled ``Tiananmen thugs'' have been executed. 
In custody and repatriation centers, prisons, reeducation through labor 
camps and various black jails, countless deaths have been due to state 
violence. Citizens die at the scene of forced demolitions, or under the 
iron fists of city management. Since 1999, at least 3,800 Falun Gong 
practitioners have been cruelly tortured to death. Since 2009, at least 
140 Tibetans have self-immolated in protest of the authorities' brutal 
domination. Cao Shunli was tortured to death because of her 
participation in the Universal Periodic Review at UN in Geneva on 
behalf of independent citizens. As activists are captured and tortured 
and underground Christian churches and other religious groups are 
persecuted, the gunfire of Tiananmen is echoing in the background.
    The Tiananmen massacre sustained the one-party system. Since the 
Party showed its true face in 1989, its ruthless treatment of the 
Chinese people has become even more brazen. Partly because of not 
having unions and not having the freedom to assemble and go on strike, 
there is ``the [economic] advantage of the lack of human rights.'' 
Through government-business collusion and an extremely unequal 
redistribution, China has achieved its rapid economic rise.
    But many social and political problems are behind this economic 
growth: pollution, ecological crises and widespread unsafe food 
products threaten this generation and later generations. Extremely 
unequal income distribution causes China to become one of the countries 
with the greatest wealth disparity. Corruption spreads viciously. 
Clashes between citizens and authorities are increasingly intense. It 
is ever more difficult to see hope for solutions to the problems of 
Uyghurs and Tibetans.
                   the recent comprehensive crackdown
    The Chinese government never stopped its crackdown on people's 
resistance. Since Xi came to power, he issued a harsh comprehensive 
crackdown. More than 1500 human rights defenders have been arrested and 
detained--some of them were brave enough to promote political 
activities, but many did not touch politics. Environmental protection, 
LGBT rights groups, feminist NGOs, rural libraries, think tanks--so 
many NGOs have been shut down. Some lawyers were disbarred, jailed, 
tortured and disappeared. Some lawyers are facing disbarment.
    Internet censorship is increasingly strict. Influential writers and 
bloggers are silenced or even jailed. VPNs are controlled and Gmail is 
blocked. Document No.9 reflects the severe control over ideology in 
universities, internet and media. Gao Yu, 70-year-old renowned 
journalist, was sentenced to seven years, accused of leaking state 
secrets.
    Three important laws have been drafted and will pass soon. The 
State Security Law, Counter-Terrorism Law, and Foreign NGO Management 
Law. These laws are abusive by nature and these laws give ample room 
for abuses. These laws will empower the domestic security forces and 
state security cadres. Foreign NGOs will be seriously affected, and 
many will have to leave China. Public security bureaus, instead of 
civil affairs bureaus, will be given the power to ratify and supervise 
Foreign NGOs. The Counter-Terrorism Law requires western IT companies 
to provide encryption keys and source codes.
    Very recently, a Uyghur Muslim was sentenced to six years in 
Khashgar for refusing to shave off his beard, while his wife was 
imprisoned for 2 years for wearing a burqa, as part of a severe 
crackdown on religious ``extremism'' in Xinjiang.
    The Panchen Lama, Gedhun Choekyi Nyima has been disappeared for 20 
years. Some relatives and friends of Tibetan self-immolators were 
detained and sentenced for assisting in the self-immolation.
    In Zhejiang and other provinces, local authorities destroyed many 
crosses and Christian churches, and some pastors were jailed. Falun 
Gong and other some religious groups' members were detained and 
tortured in prison and Legal Education Centers (an extra-legal 
detention system). Many lawyers were harassed when challenging the 
Legal Education Centers, with at least four of them suffering broken 
ribs from beatings.
    Forced abortion and forced sterilization are still widespread, even 
though there was a slight loosening of the one-child policy.
    More forced demolitions have happened, and petitioners are facing 
harsher punishment than before.
    In general, the current comprehensive crackdown is seen as the 
worst since the 1989 Tiananmen Massacre.
    I don't deny that there are some improvements and reforms. In 
enumerating progress being made in China's legal system, people have 
pointed out the lower number of death sentences, the new criminal 
procedure law, the abolishment of reeducation through labor, reform of 
the local court system, the government's willingness to provide 
information, and the ongoing anti-corruption campaign. To begin with, 
it is questionable whether or not most of the above are actually 
progress in the legal system. Even if they are, the major driving force 
for these changes has been the people, each a result of the probing, 
pressure and price paid by rights lawyers, democracy activists, and the 
countless Chinese on the lower rungs of society. It is really 
ridiculous that some people think the credit should go to the dictators 
and perpetrators of human rights abuses. The meaningful progress of the 
past two decades is the growing civil society.
                         rethink china policies
    There must be something wrong: so as to not inflame the Chinese 
Communist Party (CCP), they do not dare to meet with the Dalai Lama. To 
gain Chinese markets, they disregard violations of human rights. To 
receive large orders for goods, they one after another adopt 
appeasement policies towards the Chinese Communist autocratic regime. 
Democratic countries join in the Asian Infrastructure Investment Bank. 
Beijing watchers and researchers self-censor, even to the point that 
they defend despotism, to please the Party, or to not lose cooperation 
projects with China, or scared they won't get a China entry visa. 
Confucius Institutes, scholars and students federations supported by 
Chinese Embassies, and other government-sponsored programs, have eroded 
western academic freedom.
    But now is the time for the West to rethink and adjust its policies 
towards China. A strong repressive political power is threatening not 
just the Chinese people, but the entire world--economically, 
politically, militarily and spiritually. Only promoting a truly free 
China comports with the long-term interests of humanity. Before China 
is democratized, the world will not be safe. The CCP won't last 
forever, but Chinese people will continue to live on that soil. The day 
will come when US must deal with today's Chinese prisoners of 
conscience locked away and filled with suffering, Liu Xiaobo, Xu 
zhiyong, Ilham Tohti, Pu Zhiqiang, and others.
                            recommendations
    Pass an act to prohibit Chinese perpetrators who are responsible 
for human rights violations from entering the US and other democratic 
countries. The Magnitsky Act is a good example.
    Support Chinese human rights defenders, political prisoners and 
real NGOs. Give awards to prominent activists, just as the west has 
done with the Dalai Lama, Liu Xiaobo and Hu Jia.
    Stop the cooperation with Chinese government-organized NGOS--or 
GONGOs--which are helping the Chinese government to suppress human 
rights and freedom. For example, the All-China Lawyers Association and 
Chinese Human Rights Association.
    Make sure that the Confucius Institutes, scholars and Students 
federations and other government-sponsored programs do not violate 
academic freedom and human rights.
    Punish the American companies and individuals who help or cooperate 
with the CCP to suppress freedom and human rights. Yahoo is one example 
when it provided clients' information to Chinese state security, 
leading to the long-term imprisonment of several Chinese intellectuals.
    Help to develop technology to circumvent internet censorship.
    After 26 years, the symbolism and meaning inherent in that world-
famous picture still need understanding: a young person solitarily 
standing in front of a tank, it communicated the terror and bloodiness 
of tyranny, and communicated Chinese people's resolute and brave 
resistance to tyranny.History will require us to answer one question: 
Did we stand on the side of the Tankman or on the side of the tank?
    Thank you very much for hearing me. Your ideas, your voices and 
your votes will influence China, and bring more freedom and human 
rights to this planet.
                                 ______
                                 

                    Prepared Statement of Lisa Peng

                              june 3, 2015

                  Passive Acceptance, Active Scrutiny

    Resolved: The United States is justified in intervening in the 
internal political processes of other countries to attempt to stop 
human rights abuses.
    This was the 2013 topic at the City Club of Cleveland's Annual High 
School Debate Championship featuring Lincoln-Douglas debate, a one-on-
one form of debate centered on the morality and ethics of a value 
proposition. Each year, the City Club of Cleveland provides two high 
school debaters the opportunity to debate in a room historically 
renowned for celebrating the freedom of speech. As I researched the 
topic of human rights abuses in preparation for the debate, I reflected 
on the moral obligation of countries to protect human rights and the 
fundamental role human rights ought to play in foreign relations. I 
learned that despite such a moral obligation, it is easy to stand by as 
human rights are abused; it is easy to passively accept human 
suffering. This topic was personal for me because my father, Peng Ming, 
is serving a life sentence in a Chinese prison, branded a criminal by 
the Chinese government because of his work advocating for human rights.
    My journey to advocate for the release of my father and for human 
rights in China began two years ago with a debate topic that piqued my 
interest in learning about those rights and about my own father. I had 
always known that I am his mirror image and that we both share a love 
for the art of debate, but, beyond that, I did not know much else. 
After all, my last memory of him was from eleven years ago. Thus, I 
began to piece together a timeline of my father's life and my family's 
journey of escape to America.
    My father, Peng Ming, is an environmentalist, an economist, and a 
human rights activist. He is the author of The Fourth Landmark, a book 
on China's economic and political growth that was sponsored by the Ford 
Foundation. He was also the founder of China Development Union, a think 
tank established to address the censored topics of rule of law and 
human rights. However, in 1999, the Chinese government shut down the 
think tank and sentenced my father to 18 months of labor camp. His 
crime? Passionately advocating for human rights and freedom in China. 
Upon his release, the government wire-tapped our house, began following 
our car, and even threatened my father with a second arrest. It became 
too dangerous to continue living in China, and so my family decided to 
flee political persecution.
    We eventually made it to Thailand, where we were granted UN Refugee 
Status. On August 29th, 2001, we landed in the United States, the land 
that stood for us as a beacon of freedom, human rights, and rule of 
law. For the first time, we experienced freedom of expression and 
justice not as values confined to an underground think tank, but rather 
as values championed by a nation.
    In the United States, my father continued his human rights work. In 
2004, he traveled to Thailand to establish a safe haven for political 
refugees. However, he was lured to Myanmar, kidnapped by Chinese secret 
police, and quickly sentenced to life in prison. The United Nations 
Working Group for Arbitrary Detention has determined that the 
deprivation of my father's liberty is in contravention to the Universal 
Declaration of Human Rights. Furthermore, my father is a U.S.-based 
dissident with UN refugee status who escaped political persecution in 
China. Therefore, his kidnapping is in violation of the principle of 
non-refoulement, which forbids the return of a victim of persecution to 
his persecutor. My father has also been deprived of his right to due 
process, as he was denied access to a lawyer and a jury of his peers, 
rights we take for granted here in the United States.
    That Lincoln-Douglas debate resolution prompted my journey to 
discover who my father is and the values for which he stands. While I 
had the privilege to debate in a room that celebrates the freedom of 
speech, my father remains locked in a room built to stifle and punish 
prisoners of conscience. It has been a decade during which I have been 
privileged to receive an American education and learn about freedom, 
democracy, and justice, but a decade during which my father has 
remained imprisoned for fighting to secure those very same values. As 
an American citizen, I cannot merely stand by and passively accept the 
denial of these fundamental freedoms.
    In the past two years, I worked with members of Congress, written 
op-eds and essays on my father's story, and testified before the Taiwan 
Parliament, the European Union Parliament, and the United States 
Congress to advocate for my father's freedom and for the freedom of 
thousands of other political prisoners in China.
    Although the support from US congressmen has give me great hope for 
my father's release, I know that his case is only the tip of the 
iceberg. There remain thousands of prisoners of conscience and innocent 
Chinese civilians who suffer the same denial of basic freedoms. If we 
don't speak up, there will remain no hope for human rights in China, 
and activists like my father will continue to suffer.
    Sadly, the human rights issue is one that is easily ignored in 
light of pressing economic concerns. China has become the world's 
second largest economy and a major trading partner of the United 
States. Powerful economic interests want us to turn a blind eye to 
China's human rights record. Respecting America's values and standing 
up for human rights has never been easy. And it is not easy now. But 
isn't this what the promise of America is really about?
    Though I am no politician or expert in this field, I have learned 
through Lincoln-Douglas debate that human rights are the foundation 
from which meaningful and effective discussions of economics and 
politics must proceed. In fact, these are the same values and 
fundamental freedoms on which our great nation was founded. And as 
someone who was rescued, raised, and educated by this country, I feel 
that I owe the United States my utmost gratitude. However, gratitude 
for one's country is not demonstrated by passive acceptance of our 
country's actions, but in active scrutiny. We show our gratitude and 
love for our nation by holding it to the highest of standards, the 
standards on which it was founded.
    In doing so, I have realized that the issue of human rights is not 
only political--it is personal. It is a personal commitment to speak 
up. It is a refusal to remain silent. It is acting on the principles 
that we read and write about. It is the efforts of people like you who 
speak up and take a stand on human rights that give me hope for the 
future. They give me hope for the possibility of telling my father in 
person how much we have all cared about him and his dream for China's 
future. They give me hope for the possibility of securing human rights 
in China, and for paying the utmost respect to the values on which our 
own great country was founded, the values for which I hope it will 
always stand.
                                 ______
                                 

                      Prepared Statement of Ho Pin

                              june 3, 2015
    Representative Smith and Senator Rubio:
    Thank you for giving me the opportunity to stand here today and 
give voice to a brave Chinese journalist, Ms. Gao Yu, who has recently 
been imprisoned on fictitious charges for the third time. The seventy-
one-year-old Gao Yu merely fulfilled her duty as a journalist and 
shared the truth that she knew with the public. Gao Yu's case is not 
isolated. More and more writers, thinkers, and human rights lawyers are 
being illegally detained or imprisoned. They include Nobel Peace Prize 
winner Liu Xiaobo, economist lham Tohti, writer Xu Zhiyong, lawyer Pu 
Zhiqiang. The list goes on.
    Over the years, many people have stood in this very spot, urging 
the world to pay attention to China's human rights abuses. But, this 
solitary light in the darkness has not been able to illuminate China's 
blatant violations or pierce through the smog shrouding all the 
injustices. Therefore, I don't want to go that route again and focus 
solely on China's human rights issues or to condemn the Chinese 
government like others have done before. I want to raise some questions 
instead.
    With its deteriorating human rights records, why is China getting 
stronger by the day? Why are Chinese leaders getting more popular in 
the international community? Is China building its national strength 
for the sole purpose of jockeying for the number one position with the 
United States? Will China engage in a war with the United States and 
its Asian neighbors such as Japan and Philippines? Will the world 
return to a cold war?
    These are not new questions. American experts have already provided 
some answers. Some scholars believe that there is a secret 
``bamboozling'' department within the Communist Party. It has designed 
strategies that have successfully deceived the world and gained China 
several decades of time to develop. Some say the rule of the Chinese 
Communist Party is already approaching its end and the regime is on the 
verge of collapsing. Others claim that US-China relations have 
deteriorated to a critical point and that the US should throw China 
some candies to lure it back to the right track.
    So what are my views?
    First, I believe that China has risen, and it has, as advertised, 
risen peacefully. China is the world's No.2 economy and has splashed 
huge amount of investment across the globe. Millions of wealthy Chinese 
travelers flock to every famous tourist site and the most expensive 
department stores. It would be impossible to close your eyes and ignore 
China's rise. The only thing China has yet to achieve is the number one 
position in the world.
    At the same time, China's rise has not led to any wars. Even though 
the Chinese army has been acting like a belligerent hormone-raging 
teenager in the South and East China Seas over the last few years, I 
don't think the Chinese leadership has plans or the desire to start a 
war in Asia. Especially when they are not psychologically prepared to 
lose a war. The most arrogant and bold military commanders can merely 
strike a pose through minor incursions or the intimidation of the 
militarily weak Philippines. With the exception of its strategic 
missile defense systems, which aims to deter, rather than invade, the 
Chinese army doesn't yet have the ability to project its power around 
the globe. Even in the Pacific region, Chinese navy and air forces are 
not capable of a sustaining war against Japan and the US.
    In other words, China lacks the ability to launch a large-scale war 
in the Pacific theater in the foreseeable future, not to mention 
launching a world war like the Nazi Germany did. China does not have 
the capability, nor the guts. It's not their intention. There is no 
Adolf Hitler in China. More importantly, the Chinese leadership doesn't 
see the necessity.
    In addition, China has no plans to engage in a cold war with the 
West, United States included. The current political system in China 
cannot be defined in conventional terms. It's neither socialism, nor 
capitalism. It's not an empire in the traditional sense. It is a 
mongrel. One of the most famous maxims of Deng Xiaoping states that 
``It doesn't matter whether a cat is white or black, as long as it 
catches mice.'' Therefore, the end justifies the means. While this 
pragmatic philosophy has contributed to China's rapid economic growth, 
it also turned the Chinese political system into a two faced monster 
the likes of which one normally sees only in computer games. Like the 
legendary cat that has nine lives, it's adaptable and resilient.
    As a consequence, many incomprehensible things have happened--the 
ruling Communist Party has defied expectation and lived on. The 
government can blatantly repeat something that is universally 
acknowledged as lies. For example, the Communist Party is promoting an 
anti-West agenda in its internal documents. The Communist Party's 
propaganda machine distorts truths about Western democracies to prevent 
the pursuit of democratic values by its citizens and to threaten its 
citizens who are trying to demand the rights to select their own 
leaders, criticize their governments and use the law to protect 
themselves. On the other hand, the Communist Party has long abandoned 
socialist theories. Many leaders are big fans of Western democratic 
societies. They send their children to study in the West or secretly 
help their relatives who intend to emigrate. Some view the fact that 
they can visit the West as a badge of honor. I have met and talked with 
many Chinese officials when they traveled in the U.S., and hardly 
anyone was a true opponent of Western values. On the contrary, they all 
agree that a democratic system can guarantee fairness and bring 
stability to the country.
    In other words, the Chinese leaders have no intention of building 
another Berlin Wall. Neither do they plan to start a cold war with the 
West. They have no desire to impose their systems on the West because 
they can't even define the kind of political system China has. There is 
no Stalin in China and nobody wishes to be his disciple. President Xi 
Jinping has heaped praise on Putin, but his praise has its own purpose. 
President Xi admires Putin's personal power. It is true that the 
Chinese president stood side by side with Putin to inspect the troops 
in the Red Square a few days ago, but that doesn't mean that China and 
Russia can establish an alliance against the U.S. Mistrust of Russian 
by the Chinese government and people is deep-seated and hard to dispel.
    Thirdly, the conflicts between China and the West are not about 
ideology or cultures. The mainstream religion, in China has long served 
as a tool to unite all factions of society. Religion, a tamed pussycat, 
is becoming an integral part of the Communist Party. The Chinese are 
not capable of starting a holy war against the West. They wouldn't even 
dare. Nationalism is nothing more than lip service. The Chinese leaders 
use this type of neurotic nationalism to cover up their empty and phony 
ideology. No leaders would want nationalism to become fanatical and get 
out of control. Overheated nationalism could set the house of the party 
on fire.
    If the above are true, why are we worried? We should not only be 
concerned but also alarmed. It's not a matter of which country will be 
the world's number one. The changes in China will impact the world. If 
China can integrate itself into the civilized world, in which people's 
rights and self-determination are respected, the world will enter a new 
era. Mankind can truly base their thinking and policies on a common 
destiny. If the Chinese Communist Party, with its terrible records on 
human rights and stellar results in economic development, is allowed to 
continue, it will not only bring disaster to the Chinese people, but 
also destruction to the whole world. It is neither an actual war with 
weapons, nor is it a cold war between two ideological camps. It's not a 
conflict of cultures and value systems. China's mongrel and pragmatic 
nature has made its system more adaptable and more powerful. Its 
ability to destroy the world's political and biological environments 
and to spread such destructive power is beyond even its own 
expectation. A virus starts with just a few patients. Soon, it spreads 
to every corner, causing a worldwide outbreak. This is what China will 
do to the world - destroy the very foundation of human freedom.
    What I want to emphasize is that this is not what the Chinese 
leadership envisioned thirty years ago. Neither is it the political 
ambition of the current leadership. The current situation is the 
consequence of human weakness, the short-sightedness of politicians of 
the West, the insatiable greed of unscrupulous capitalists and the 
distorted social and political structure in China. Together, they have 
created such a virus, or at the very least, they have provided 
opportunity for it to mutate and spread.
    Two months after the Chinese government brutally cracked down on 
the student movement in China on June 4th, 1989, President George Bush 
provided prompt support for Deng Xiaoping through his secret envoy. The 
collapse of the former Soviet Union and East European Communism made 
many politicians in the West complacent. They forgave and accepted the 
paranoid and humble Chinese leaders. In return, Deng Xiaoping and his 
successors initiated open door and economic reform policies. These 
reforms didn't bring any political progress. Instead, China took 
advantage of the technology from Hong Kong, Taiwan and the West and the 
benefits of the WTO to boost its economy at the cost of social equality 
and its environment. Once the Communist Party strengthened its power 
through its strong economy, it went on to undermine Western opposition 
to China's human rights practices.
    Now, the Chinese leadership practically doesn't care at all about 
the pressure from Western public opinion because politicians and 
businessmen from around the world are salivating at China's immense 
purchasing power, investment and markets. It's no exaggeration to say 
that today, Chinese leaders are the most well-received, honored guests 
in a majority of countries worldwide; China is the destination for many 
of the world's elite who thirst for gold.
    Beijing tightly controls the freedom of the press. They could cut 
off Google and Yahoo anytime; they'd refused visas for New York Times 
journalists, and blocked access to Twitter and Facebook. All without 
impunity. While at the same time, they can set up any media they would 
like in the US. They provide free trips to Chinese language media 
chieftains in the West to receive training in China, and they even hire 
secret hackers to attack independent Chinese media outlets overseas. 
Ironically, China, which screens, censors and bans any print and 
electronic publication, has been invited to serve as the country of 
honor at book fairs in Frankfurt, London, and New York!
    Hollywood is the epitome of free American culture; filmmakers are 
free to ridicule, mock, and criticize American politicians and 
government officials such as senators, judges, and the president, 
without fear of persecution. But in their pursuit of China's box office 
dollars, Hollywood executives have consciously decided to steer clear 
of any criticism of the Chinese government. Despite this, American 
movies are still censored in China, and some are not allowed at all.
    Given these circumstances, does China's leadership have to risk it 
all and start a war? Does China have to close its doors once again and 
restart the cold war against the West? They can get everything they 
need and they can reject everything they don't want.
    The problem lies in the fact that the West pursues short-term 
economic interests by ignoring the worsening of Chinese people's 
rights. Western corporations scrambled to do business with China 
regardless of the record of human rights violations. A desire for 
profit with no social conscience encourages the growth of this new 
style of politics in China. It is tantamount to striking the core of 
every lesson Chinese officials learned about conducting their political 
business worldwide. Meanwhile, the cash that the Communist Party waves 
in their hands has made it possible for the China virus to spread 
unencumbered in the world, causing the value of Western freedom to grow 
weaker, feebler, and more and more susceptible to illness.
    China was never a threat before. It was the Western world that has 
made the Chinese leadership think the West could easily be threatened.
    So what can we conclude? No one can figure it out, because no one 
is consciously aware; to a certain extent, we have all been infected by 
the virus. Otherwise, we would not feel so confused and lost, so 
powerless. And because of our inaction and complacency, Gao Yu, Liu 
Xiaobo, Ilham Tohti, Wang Bingzhang, Xu Zhiyong, and Pu Zhiqiang are 
languishing in prisons. Chinese citizens who died 26 years ago in 
Tiananmen Square and now lie in the ground have turned into lonely 
ghosts wandering in the wild. Dawn has yet to arrive in China. If we 
continue along this muddy, murky road, we will also be swallowed by the 
darkness.
    The reason that I'm standing here today is that the scene I saw 26 
years ago in Tiananmen Square still has not faded from my memory. I 
share the pain of those who lost friends and relatives in Tiananmen 
square. I firmly believe that things could change if America were to 
wake up from its vacant and passive view of China. America is not a 
narrow-minded nationalist empire. America represents the values 
established by people who pursue the dream of freedom. This means that 
America is destined to be responsible for people who are pursuing 
similar dreams in other countries. I am not advocating war between 
China and the US. I absolutely don't want confrontation between China 
and the US. I don't think it is necessary for another Pearl Harbor to 
wake up the American people. I hope that America will become the 
driving force for democracy and human rights in China. The very least 
we can do is to take actions that will not encourage the continued 
growth of a dangerous political virus in China that values cash more 
than freedom and human rights. We can, and should, work to assure the 
Chinese people their dignity, to assure a long-term friendship between 
the US and China, and to assure the security of the cornerstone of 
freedom for the whole world.
                                *  *  *

               [From the New York Times, April 28, 2015]

                          Gao Yu's Real Crime

                              (By Ho Pin)

    NEW YORK--One evening in June 2013, I received a call from a man 
who identified himself as an official for the Chinese Communist Party's 
Propaganda Department in Beijing. He asked me to publish an internal 
party directive on Mingjing, a Chinese-language news portal I run out 
of New York.
    Western media had already reported on the key segments of the 
directive, known as Document No.9. Many analysts saw it as President Xi 
Jinping's attempt to adopt a traditional leftist and anti-West agenda.
    The caller claimed that Document No.9 was merely a routine 
directive that analyzed new political trends and that journalists 
should not read too much into it. By sending me the full text, the 
official said he intended to provide a proper context. ``The political 
situation in China isn't all that bad,'' he told me.
    I wasn't sure whether the call was part of a deliberate leak with 
tacit approval from the senior leadership or an individual acting 
alone. He sent me the document, and though I thought that its 
significance might have been overblown in the earlier press accounts, I 
believed it offered a rare glimpse of the inner workings of the Chinese 
government. I verified its authenticity and published it in Mingjing 
Magazine in July 2013.
    In April 2014, Gao Yu, a journalist friend, disappeared in Beijing. 
The next month I was shocked to learn that she had been arrested for 
allegedly leaking Document No.9 to me via Skype. The police claimed to 
discover on her computer three digital copies of the paper, which they 
used as evidence against her. Ms. Gao countered that she had downloaded 
them from the Internet and that they were slightly different from what 
I posted online.
    Earlier this month, Ms. Gao, 71, was sentenced to seven years in 
jail for leaking ``state secrets.'' The judge based his conviction 
chiefly on her ``confession,'' which she retracted because, she said, 
it was given after threats against her son by the police.
    Did the propaganda official leak the document to me with the intent 
to frame her, I wondered. Or, did the police simply find a convenient 
excuse to lock up Ms. Gao, who had been blacklisted because her writing 
had frequently appeared on overseas websites? I chose to believe the 
latter.
    Document No.9, written in a typical jargon-studded language, warns 
party leaders against seven political ``perils,'' including the 
promotion of constitutional democracy, universal values, civil society 
and Western-style press freedom.
    As a publisher of United States-based magazines about Chinese 
politics, I frequently receive news tips and government documents--a 
melange of truth and rumors--from Chinese officials, scholars and 
business people. Some expose scandals within the government out of a 
sense of justice, while others aim to advance a political agenda or to 
smear political opponents. One thing is certain: The ``deep throats'' 
know that China's senior leaders care about what the overseas news 
media reports about them.
    I have known Ms. Gao since the late 1980s, when we were both 
journalists for state media organizations. In China, where most 
journalists are mouthpieces of the party, she has kept her independence 
and paid a hefty price: She was put in jail in 1989 for her support for 
the 1989 student protest movement, and again in 1993 because of her 
connection with a Hong Kong magazine. In recent years, Ms. Gao's 
commentaries and analyses published in the West have offered valuable 
insights into Chinese politics, especially during the internal 
wrangling surrounding Bo Xilai, the former Politburo member purged in a 
cloud of scandal in 2012.
    Ms. Gao frequently gives voice in her articles to the liberal and 
moderate factions within the party that have become disillusioned with 
President Xi Jinping, the man whom they called China's Vladimir Putin. 
Document No.9 was reportedly directed at this group. But Ms. Gao has 
never allied herself with any political factions.
    In 2012, when Mr. Xi's relatives sought her help in clarifying 
Western media reports about his family's finances, she agreed and 
presented their views through Mingjing. At the same time, she was not 
afraid of speaking out against Mr. Xi. In a private talk, she described 
China under Mr. Xi as a combination of a modern-day Nazi and Stalinist 
state.
    Before Ms. Gao's trial in November 2014, I drafted an affidavit 
detailing how I had received Document No.9 from a party propaganda 
official. The Chinese Consulate in New York refused my notarized 
statement. I then FedExed it to Ms. Gao's defense attorney, but the 
Beijing Third Intermediate People's Court excluded my testimony in its 
deliberation.
    If the leadership punished Ms. Gao to intimidate future leakers, 
their efforts are in vain. As long as the Chinese public craves Chinese 
news from overseas, and trusts Western media over state-controlled 
propaganda, China's elite will continue to feed Western journalists 
``exclusives.'' Our stories will influence Chinese politics more than 
ever as factions compete to smear their opponents, intensify power 
struggles and hasten changes within the party.
    Ms. Gao's real crime had nothing to do with leaking Document No.9. 
She offended the authorities by speaking out against government 
policies. Even though Mr. Xi has recently announced plans to make the 
legal system more transparent, Ms. Gao's conviction shows that nothing 
has changed under a dictator who cannot abide dissenting views.
    The case also reflects China's increasing arrogance toward the 
West, which is increasingly tolerant of Beijing's growing human rights 
violations and nationalistic behavior. Corporations are caving in to 
Chinese demands, placing short-term business gains ahead of principles, 
thus confirming to China the diminishing influence of the West. 
Consequently, the Chinese government feels free to imprison and bully 
Chinese and foreign journalists. Standing up to China will not only 
guard basic human values, but protect Western economic interests. No 
business is safe in a totalitarian country.
    Gao Yu has sacrificed her personal freedom three times for the 
cause of free speech because it is the cornerstone of all freedoms.

    Ho Pin, the founder of Mirror Media Group, and Wenguang Huang, who 
translated this essay from the Chinese, are co-authors of ``A Death in 
the Lucky Holiday Hotel: Murder, Money, and an Epic Power Struggle in 
China.''

    A version of this op-ed appears in print on April 29, 2015, in The 
International New York Times.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



  Prepared Statement of Hon. Christopher Smith, a U.S. Representative 
 From New Jersey; Chairman, Congressional-Executive Commission on China

                              june 3, 2015
    Twenty-six years ago the world watched as millions of Chinese 
gathered to peacefully demand political reform and democratic openness. 
The hopes and promises of those heady days ended with needless violence 
tears, bloodshed, arrests and exile.
    Mothers lost sons, fathers lost daughters, and China lost an 
idealistic generation to the tanks that rolled down Tiananmen Square on 
June 4th, 1989.
    Tiananmen Square has come to symbolize the persistent and brutal 
lengths the Chinese Communist Party will go to remain in power. This 
event has done more to negatively shape global perceptions of China 
than any other in recent history.
    We remember the Tiananmen massacre here in Congress because of its 
enduring impact on U.S.-China relations. We remember it also because an 
unknown number of people died, were arrested, and exiled for simply 
seeking universally recognized freedoms. We also remember Tiananmen 
because so many people were arrested last year for trying to 
commemorate the anniversary in China.
    We remember this date each year because it is too important to 
forget and because it is too dangerous to commemorate in China.
    The Chinese government should allow open discussion of the 
Tiananmen protests and end the enforced amnesia surrounding the events 
of 1989. And, more importantly, the Chinese government should take 
responsibility for the national tragedy that occurred on June 3rd and 
June 4th, 1989.
    Sadly, it seems that a China lead by President Xi Jinping will not 
take such responsibility. President Xi and top Communist Party leaders 
regularly unleash bellicose attacks on ``universal values,'' ``Western 
ideals,'' and ``revisionism of the Party's history.''
    The domestic screws on dissent have tightened considerably since Xi 
Jinping assumed the Presidency. Over 230 people have been detained for 
their human rights advocacy and peaceful efforts at political reform. A 
number some rights groups are calling the largest crackdown in two 
decades.
    The Chinese government rounds up not only reformers, but those who 
defend them. It views most Uyghurs as security threats and then jails 
Uyghur intellectuals peacefully seeking ethnic reconciliation. It not 
only smothers internet freedom and its domestic media but threatens 
foreign journalists and spurs self-censorship from Harvard Square to 
Hollywood.
    The Chinese government also threatens foreign citizens or foreign 
institutions who speak out for greater human rights. The family members 
of Canada's Miss Universe, for example, were threatened for her 
outspokenness about human rights. Also, China's new and troubling NGO 
law, could bar an American university from China, or even detain its 
representatives in China, if a campus student group stages a protest in 
the United States against the Chinese government's treatment of 
Tibetans, Christians, or Falun Gong; the detention of Liu Xiaobo, or 
the criminal tragedy of China's 35 year ``One-Child Policy.''
    U.S. policy must support Chinese advocates who promote human rights 
and political reform and stand firm for U.S. interests in greater 
freedom and democracy in China.
    Our strategic and moral interests coincide when we support human 
rights and democracy in China. A more democratic China, one that 
respects human rights, and is governed by the rule of law, is more 
likely to be a productive and peaceful partner rather than strategic 
and hostile competitor.
    We should remember this fact as we watch China building bases and 
threatening free and open seas lanes in the East and South China Sea.
    The United States must also make strong appeals to China's self-
interest. The rule of law, freedom of the press, an independent 
judiciary, a flourishing civil society and accountable officials would 
promote all of China's primary goals--economic progress, political 
stability, reconciliation with Taiwan, good relations with America, and 
international stature and influence.
    At the same time, the United States must also be willing to use 
political and economic sanctions to respond to gross violations of 
human rights in China--torture, prolonged and arbitrary detention, 
forced abortions and sterilizations, psychiatric experimentation or 
organ harvesting from prisoners.
    That is why I introduced yesterday the China Human Rights 
Protection Act of 2015 (H.R. 2621). The bill will deny U.S. entry visas 
and issue financial penalties to any Chinese official who engages in 
gross violations of human rights.
    The United States must show leadership in this regard and send a 
strong message. The worst violators of the rights of the Chinese 
people, those who abuse universal freedoms with impunity, should not 
prosper from access to the United States and our economic or political 
freedoms.
    It is tempting to be pessimistic about China's future and the 
future of U.S.-China relations. I am not pessimistic, but hopeful. 
Constant repression has not dimmed the desires of the Chinese people 
for freedom and reform.
    While the hopes of the Tiananmen Square demonstrators have not yet 
been realized, their demands for universal freedoms continues to 
inspire the Chinese people today and has passed on to a new generation.
    We have with us today participants of the Tiananmen protests of 
1989 and new generations of advocates for democratic openness and human 
rights. They fight for universal freedoms, they fight for the release 
of their fathers and families, and they fight for reform and a future 
China that protects human rights. It is the new generation that will 
inspire change in China.
    I believe that someday China will be free. Someday, the people of 
China will be able to enjoy all of their God-given rights. And a nation 
of free Chinese men and women will honor, applaud, and celebrate the 
heroes of Tiananmen Square and all those who sacrificed so much, and so 
long, for freedom.
                                 ______
                                 

 Prepared Statement of Hon. Marco Rubio, a U.S. Senator From Florida; 
        Cochairman, Congressional-Executive Commission on China

                              june 3, 2015
    Twenty-six years ago this week, student-led popular protests 
gripped Beijing. Spurred by the death of a prominent reformer, 
thousands gathered in Tiananmen Square in April 1989 seeking greater 
political freedom. Their numbers swelled as the days passed not only in 
the capital but in cities and universities across the nation until more 
than a million, including journalists, workers, government employees 
and police, joined their ranks making it the largest political protest 
in the history of communist China.
    Late in the evening of June 3, the Army opened fire on peaceful 
``counter-revolutionary'' protesters. The bloodshed continued into June 
4. To this day the precise number of resulting casualties is unknown 
and more than a quarter century later there has been no movement toward 
a public accounting of the events of that week. Rather, those seeking 
to commemorate the dead are harassed, detained, and arrested.
    Perhaps the most iconic image to emerge from the Tiananmen 
Massacre, is the so-called ``tank man''-- the small lone figure, 
shopping bags in hand, who jockeyed to position himself in the path of 
an advancing line of People's Liberation Army tanks. His actions flew 
in the face of every human impulse to avoid impending danger. The 
``tank man'' remains an enigma--his fate unknown. Some speculate 
imprisonment, others execution. Still others venture that he is alive 
today, unaware of his fame because of the Orwellian lengths that the 
Chinese government Internet censors have gone to block any searches of 
the events surrounding June 4.
    Despite the fact that China's rulers revealed the true nature of 
their regime that day, too many of our political and business elite 
have been content with the status quo in China, especially as it 
relates to the denying of basic human rights and liberties. In fact, 
U.S. policy has aimed at engaging with the Chinese Communist Party, 
surrendering American leverage and principles.
    Twenty-six years later, repression continues to be the order of the 
day and the aspirations of the Tiananmen generation remain unfulfilled. 
President Xi Jinping's presidency has been marked by what experts 
describe as the most intense crackdown in years. The organization 
Chinese Human Rights Defenders reported in March that the government's 
persecution of rights defenders was as severe as it has been since the 
mid-1990s. The list of those arrested and harassed is extensive, 
including Uighur economist Ilham Tohti, Tibetan Buddhist leader Tenzin 
Delek Rinpoche, Tie Liu, Pu Zhiqiang, and Chen Kegui. Nobel Peace Prize 
winner Liu Xiaobo remains in jail and his wife Liu Xia suffers under 
house arrest, as does human rights lawyer Gao Zhisheng.
    A report released by Freedom House earlier this year found that 
since Xi Jinping came to power the regime has employed harsh tactics 
``to dominate online discourse, obstruct human rights activism, and 
pre-empt public protests''-- findings which are routinely echoed by 
Chinese dissidents. There is deep concern within civil society about 
the draconian new NGO law now under consideration in the Chinese 
legislature. This law would severely restrict the operations of foreign 
NGOs.
    The regime also is strengthening its grip on Hong Kong, denying the 
people of Hong Kong their promised right to freely choose their 
leaders. And China's growing repression at home is being watched 
closely by its neighbors as Beijing flexes its military capabilities 
and reasserts illegitimate territorial claims threatening regional 
security. China's neighbors realize that how a nation treats its own 
citizens is indicative of more than just a country's internal 
situation.
    Despite this grim picture, I believe change is coming to China. 
Systems of government which are built on repression do not stand the 
test of time. Even with China's economic growth, we have yet to see 
political openness follow. While the road to reform in China is 
uncertain, American support for the ideals which are at the heart of 
our own experience in self-governance ought to be a cornerstone of U.S. 
foreign policy.
    In her inaugural trip as Secretary of State in 2009, Hillary 
Clinton opined, en route to China, that contentious issues like human 
rights ``can't interfere with the global economic crisis, the global 
climate change crisis and the security crisis.'' Human rights should be 
fully integrated into every level of our bilateral relationship with 
the Chinese government, and repressive governments the world over. It 
is always in America's interest to support the expansion of democracy 
and its institutions.
    For too long, China has gotten a free pass. With the approaching 
U.S.-China Strategic and Economic Dialogue the president has an 
opportunity to prioritize these issues--to charge every participating 
U.S. government agency to bring human rights to the forefront with 
their Chinese counterparts, to present them with lists of political 
prisoners and press, by name, for their unconditional release. The 
Administration can take proactive steps today to impose visa bans on 
Chinese government officials who are perpetrators of grave human rights 
abuses.
    Twenty-six years ago several Tiananmen art students constructed a 
magnificent paper mache statue of the so-called goddess of democracy, 
in the hopes of bolstering the fledgling protest movement. It was 
ultimately destroyed by soldiers clearing the square, but not before 
its creators authored a declaration explaining their work. It read in 
part, ``On the day when real democracy and freedom come to China, we 
must erect another Goddess of Democracy here in the Square, monumental, 
towering, and permanent. We have strong faith that that day will come 
at last.''
    Helping the Chinese people reach that day is not just our moral 
duty as a free people, but will have a profound effect on the state of 
freedom in the world and on global security. We must keep the faith 
with the Tiananmen generation and work toward the realization of their 
dream for generations to come.

                       Submission for the Record

                              ----------                              


     China in 1989 and 2015: Tiananmen, Human Rights, and Democracy

                              june 3, 2015

                          Witness Biographies

    Dr. Teng Biao, a well-known Chinese human rights lawyer, a Harvard 
University Law School Visiting Scholar, and Co-founder, the Open 
Constitution Initiative

    Dr. Teng Biao is a well-known Chinese human rights lawyer, a 
Harvard University Law School Visiting Scholar, and Co-founder, the 
Open Constitution Initiative. He holds a Ph.D. from Peking University 
Law School and was a visiting scholar at Yale Law School. He is 
interested in the research on human rights, judicial systems, 
constitutionalism, and social movements. As a human rights lawyer, Teng 
is a promoter of the Rights Defense Movement and a co-initiator of the 
New Citizens' Movement. In 2003, he was one of the ``Three Doctors of 
Law'' who complained to the National People's Congress about 
unconstitutional detentions of internal migrants in the widely known 
``Sun Zhigang Case.'' Since then, Teng Biao has provided counsel in 
numerous other human rights cases, including those of rural rights 
advocate Chen Guangcheng, rights defender Hu Jia, the religious freedom 
case of Cai Zhuohua and Wang Bo, and numerous death penalty cases.

    Lisa Peng, Daughter of Chinese democracy activist Mr. Peng Ming, 
freshman at Harvard, and TEDx speaker

    Lisa Peng is the daughter of Chinese human rights and pro-democracy 
activist Mr. Peng Ming who was kidnapped in Burma by Chinese secret 
police and sentenced to life in prison in 2004. Lisa was born in 
Beijing and suffered doubly as a second child by being denied official 
legal recognition. In 2000, her family fled government persecution and 
was accepted by the United States as UN refugees in 2001. Lisa is 
working with the China Aid Association, the State Department, and 
members of Congress to advocate for the release of her father and other 
prisoners of conscience. She has shared her father's story in a Plain 
Dealer Op-Ed and a TEDx Talk. Lisa is a freshman at Harvard University, 
where she studies mathematics and political philosophy. Outside the 
classroom, Lisa is an op-ed writer for The Harvard Crimson and a staff 
writer for the Harvard Salient, a member of the John Adams Society, and 
a singer in the Radcliffe Choral Society.

    Ho Pin, President and CEO of Mirror Media Group

    Ho Ping, a former journalist and director of the news department at 
Shenzhen News was originally from Hunan and participated in the 1989 
student movement. Ho left China for Canada after Chinese authorities 
started investigating him because of his writings and analysis of 
political events in China. Ho Ping established Mirror Media Group in 
Canada in 1991 and the Chinese language news website Duowei News in 
1999. Ho sold the website to Hong Kong media mogul Yu Pun-hoi in 2009 
(Duowei has a news bureau in Beijing). Mirror Media Group currently 
includes five independent publishing houses, five magazines, three 
websites, a bookstore, and an online bookstore. Mirror Media Group has 
Chinese-language publication distributors in Hong Kong, Taiwan, 
Singapore, and the United States. Ho Pin has worked in mainland China, 
Hong Kong, and Taiwan with news and publishing organizations as a 
reporter, editor, and executive.

    Michael Horowitz, CEO of 21st Century Initiatives, a Washington 
D.C. think tank

    Michael Horowitz has led a broad range of human rights coalitions 
and has played major roles in the passage of such human rights 
legislation as the International Religious Freedom Act, the North Korea 
Human Rights Act, the Trafficking Victims Protection Act and the Sudan 
Peace Act. Mr. Horowitz has been especially active on behalf of Tibetan 
Buddhists, Christians, Falun Gong believers, and Uyghur Muslims. He 
also has provided vital assistance to organizations dedicated to 
fighting Internet censorship and penetrating China's Great Fire Wall. 
He served as General Counsel of the Office of Management and Budget 
during the Reagan administration.

    Dr. Yang Jianli, President, Initiatives for China/ Citizen Power 
for China

    Dr. Yang Jianli is a scholar and democracy activist internationally 
recognized for his efforts to promote democracy in China. He has been 
involved in the pro-democracy movement in China since the 1980s and was 
forced to flee China in 1989 after the Tiananmen Square massacre. He 
holds PhDs in mathematics from the University of California at Berkeley 
and in political economy and government from Harvard University's 
Kennedy School of Government. In 2002, Dr. Yang returned to China to 
support the labor movement and was imprisoned by Chinese authorities 
for espionage and illegal entry. Following his release 2007 and his 
subsequent return to the U.S., Dr. Yang founded Initiatives for China, 
a.k.a. Citizen Power for China, a nongovernmental organization that 
promotes China's peaceful transition to democracy. In March, 2010 Dr. 
Yang co-chaired the Committee on Internet Freedom at the Geneva Human 
Rights and Democracy Summit. In December 2011, Dr. Yang, joined H.H. 
Dalai Lama and four other delegates, to attend Forum Democracy and 
Human Rights in Asia, hosted by former Czech president, Vaclav Havel.

                                 [all]
</pre></body></html>
